<html>
<title> - COMBATTING CORRUPTION IN BOSNIA AND HERZEGOVINA</title>
<body><pre>[Joint House and Senate Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        COMBATTING CORRUPTION IN
                         BOSNIA AND HERZEGOVINA

=======================================================================

                                HEARING

                               BEFORE THE
                               
            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 25, 2016

                               __________

                       Printed for the use of the
            Commission on Security and Cooperation in Europe

                             [CSCE 114-2-4]
                             
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             


                       Available via www.csce.gov
                       
                       
                              ____________
                              
                              
                      U.S. GOVERNMENT PUBLISHING OFFICE
20-355 PDF                    WASHINGTON : 2016                      

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a8cfd8c7e8cbdddbdcc0cdc4d886cbc7c586">[email&#160;protected]</a>  










            COMMISSION ON SECURITY AND COOPERATION IN EUROPE

                    LEGISLATIVE BRANCH COMMISSIONERS

               HOUSE

                                                   SENATE

CHRISTOPHER H. SMITH, New Jersey, 		ROGER F. WICKER, Mississippi, 
Chairman					Co-Chairman
ALCEE L. HASTINGS, Florida		        BENJAMIN L. CARDIN, Maryland
ROBERT B. ADERHOLT, Alabama			JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas			RICHARD BURR, North Carolina		
STEVE COHEN, Tennessee				JEANNE SHAHEEN, New Hampshire
ALAN GRAYSON, Florida				TOM UDALL, New Mexico
RANDY HULTGREN, Illinois			SHELDON WHITEHOUSE, Rhode Island
JOSEPH R. PITTS, Pennsylvania
LOUISE McINTOSH SLAUGHTER, 
New York

                     EXECUTIVE BRANCH COMMISSIONERS

                      Vacant, Department of State
                     Vacant, Department of Commerce
                     Vacant, Department of Defense

                                  [ii]


                        COMBATTING CORRUPTION IN
                         BOSNIA AND HERZEGOVINA

                              ----------                               
May 25, 2016

                             COMMISSIONERS

                                                                   Page
Hon. Roger F. Wicker, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher H. Smith, Chairman, Commission on Security and 
  Cooperation in Europe..........................................    12
Hon. Jeanne Shaheen, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    19
Hon. Robert Aderholt, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................    21

                                 MEMBER

Hon. Scott Perry, Representative from the State of Pennsylvania..    15

                               WITNESSES

Amb. Jonathan M. Moore, Head of the OSCE Mission to Bosnia and 
  Herzegovina....................................................     3
Thomas O. Melia, Assistant Administrator, Bureau for Europe and 
  Eurasia, USAID.................................................     4
Srdjan Blagovcanin, Chairman of the Board of Directors of 
  Transparency International, Bosnia and Herzegovina.............     7
Dr. Valery Perry, Sarajevo-based Independent Researcher and 
  Consultant and Senior Associate at the Democratization Policy 
  Council........................................................     9

                                 [iii]
                               APPENDICES

Prepared statement of Hon. Roger F. Wicker.......................    30
Prepared statement of Hon. Christopher H. Smith..................    31
Prepared statement of Hon. Benjamin L. Cardin....................    32
Prepared statement of Amb. Jonathan M. Moore.....................    33
Prepared statement of Thomas O. Melia............................    37
Prepared statement of Srdjan Blagovcanin.........................    41
Prepared statement of Dr. Valery Perry...........................    43

                        MATERIAL FOR THE RECORD

Submission for the record from Srdjan Blagovcanin................    46
Response for the record from Thomas O. Melia.....................    76

 
                        COMBATTING CORRUPTION IN
                         BOSNIA AND HERZEGOVINA

                              ----------                              


                              May 25, 2016

           Commission on Security and Cooperation in Europe

                                             Washington, DC

    The hearing was held at 2 p.m. in Senate Room 212-10, 
Capitol Visitor Center, Washington, DC, Hon. Roger F. Wicker, 
Co-Chairman, Commission on Security and Cooperation in Europe, 
presiding.
    Commissioners present:  Hon. Roger F. Wicker, Co-Chairman, 
Commission on Security and Cooperation in Europe; Hon. 
Christopher H. Smith, Chairman, Commission on Security and 
Cooperation in Europe; Hon. Jeanne Shaheen, Commissioner, 
Commission on Security and Cooperation in Europe; and Hon. 
Robert Aderholt, Commissioner, Commission on Security and 
Cooperation in Europe.
    Member present: Hon. Scott Perry, Representative from the 
State of Pennsylvania.
    Witnesses present: Amb. Jonathan M. Moore, Head of the OSCE 
Mission to Bosnia and Herzegovina; Thomas O. Melia, Assistant 
Administrator, Bureau for Europe and Eurasia, USAID; Srdjan 
Blagovcanin, Chairman of the Board of Directors of Transparency 
International, Bosnia and Herzegovina; and Dr. Valery Perry, 
Sarajevo-based Independent Researcher and Consultant and Senior 
Associate at the Democratization Policy Council.

 HON. ROGER F. WICKER, CO-CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Wicker. Welcome. Welcome all. I am United States 
Senator Roger Wicker, and I'm happy to convene this hearing on 
the fight against corruption in Bosnia and Herzegovina.
    Chairman Smith and I have visited Sarajevo together in the 
past, and I appreciate his continued leadership toward ensuring 
a stable and prosperous country.
    The United States, as we all know, cares deeply about the 
sovereignty, stability, recovery, and future prosperity of 
Bosnia and Herzegovina. Since my first visit in 1995, the 
country has made tremendous progress. However, more needs to be 
done by the international community and Bosnian leaders to 
sustain these advancements.
    Here in Congress, my fellow commissioners, Senator Jeanne 
Shaheen and I were among those working to nurture private-
sector entrepreneurship in Bosnia and Herzegovina. Last July, 
we participated in a presidential delegation to commemorate 
Srebrenica's 20th anniversary. We heard from Bosnians eager to 
create and grow their own businesses. On the 20th anniversary 
of the Dayton Accords in November of last year, we introduced 
the Bosnia and Herzegovina-American Enterprise Fund Act to grow 
small- to medium-sized businesses throughout the country.
    Unfortunately, corruption in Bosnia and Herzegovina is 
widespread. Recent news reports have highlighted scandals 
involving senior politicians and concerns that financial 
assistance to communities that experienced flooding in 2014 may 
have been misused. In its Corruption Perceptions Index, 
Transparency International ranked Bosnia behind all other 
countries in the region except Kosovo and Albania.
    Demonstrative steps need to be taken by all levels of 
government to improve transparency and the rule of law. Left 
unchecked, corruption will hinder Bosnia and Herzegovina's 
integration into Europe and NATO. Twenty years after Dayton, 
there is no excuse for corruption and the risk it brings to 
prosperity for future generations.
    I have raised these concerns with officials at the State 
Department. I encourage the administration to continue to 
support prosecutors and judges who focus on high-profile 
corruption and economic crime cases. The United States 
Government should also continue its support for investigative 
journalism and nongovernmental organizations advocating reform.
    We cannot gloss over the country's deficiencies. 
Transparency and the rule of law are critical pillars to the 
future prosperity of Bosnia and Herzegovina. The people of 
Bosnia have already suffered through so much.
    I want to thank our government and the NGO witnesses for 
joining us this afternoon. The Helsinki Commission looks 
forward to your insights and counsel on the steps required to 
enhance transparency and the rule of law in Bosnia and 
Herzegovina.
    Now, when other members arrive, perhaps they will have 
statements also, but we'll get right to witnesses.
    Our first witness today is Ambassador Jonathan Moore, head 
of the OSCE Mission to Bosnia and Herzegovina. The ambassador 
is well-known to the Helsinki Commission, with previous 
postings not only in Sarajevo but also in Belgrade, Minsk and 
Vilnius. Ambassador Moore also served as a congressional fellow 
in the Office of the Speaker of the House, as a national 
security fellow at Stanford University's Hoover Institution, 
and as a deputy chief of mission at the U.S. embassy in 
Namibia. So welcome to Ambassador Moore.
    Our second witness is the Honorable Thomas Melia, assistant 
administrator at USAID for Europe and Eurasia. Mr. Melia is 
also well-known to the Helsinki Commission for his time with 
the National Democratic Institute, Freedom House, and as deputy 
assistant secretary in the State Department's Bureau for 
Democracy, Human Rights, and Labor. Earlier in his career, 
Assistant Administrator Melia worked on the staff of the late 
Senator Daniel Patrick Moynihan. Given his extensive career 
focus on human rights and democratic development, we look 
forward to his insights regarding the issue of the day.
    Next, Mr. Srdjan Blagovcanin, our third witness, is 
chairman of the board of the Bosnia Chapter of Transparency 
International. Transparency International has done much to 
expose corruption and to counter corrupt practices in Bosnia 
and Herzegovina, throughout Europe, and around the world. Mr. 
Blagovcanin has more than a decade of experience as a promoter 
of good governance and anti-corruption reforms, and of rule-of-
law initiatives. I want to thank you for traveling to 
Washington to participate in this hearing.
    And finally, Dr. Valery Perry, an independent researcher 
and consultant who has worked for various organizations, 
including the United Nations Office on Drugs and Crime, the 
U.N. Development Programme, the OSCE, and NATO in Bosnia and 
Herzegovina. Dr. Perry is currently studying ways to counter 
violent extremism in Southeast Europe and Turkey. The 
Commission looks forward to Dr. Perry's recommendations on ways 
to promote the rule of law and promote transparency in 
Southeast Europe.
    So, we will get started with our witnesses right away, and 
we will begin with a statement by Ambassador Moore.

AMB. JONATHAN M. MOORE, HEAD OF THE OSCE MISSION TO BOSNIA AND 
                          HERZEGOVINA

    Amb. Moore. Mr. Chairman, good afternoon, and thank you 
very much for this opportunity and for the attention that you 
and all the members of the Helsinki Commission give to Bosnia 
and Herzegovina. You know very well that everything in the 
Balkans is political, and that all politics is local. In that 
spirit, the OSCE team throughout Bosnia and Herzegovina is 
engaged across the country with partners at all levels of 
society to help foster stability, build respect for human 
rights, and put its citizens on the path to prosperity.
    Let me give you some quick and concrete examples. Education 
was one of the many victims of the war. Communities and ethnic 
groups were divided, and so were their schools. OSCE in Bosnia 
and Herzegovina has engaged at all levels to support quality 
education and bring schools and students together.
    Simply lecturing politicians and parents is not effective. 
As you know from your constituents, they have a right to be 
heard. We have found places where schools can be combined, 
meaning that children learn with each other and from each 
other, instead of being separated. And instead of trying to 
impose our will, we have negotiated successfully with those 
same parents, as well as with politicians and religious 
leaders, to tear down barriers. Zepce, a mixed community in 
central Bosnia, is a shining example of this.
    Our OSCE mission is very active in the sector of rule of 
law. We are one of many partners fighting trafficking in 
persons. We have an extensive team monitoring war crimes cases, 
where more than 20 years after the war justice has not been 
done. In this, the mothers of Srebrenica are some of our most 
enthusiastic and effective allies.
    Our network of local partners is also essential for 
combating violent extremism. Terrorist attacks in Bosnia and 
Herzegovina, much more than elsewhere, fundamentally threaten 
the country's stability. The 19 Coalitions Against Hate that 
the OSCE Mission in Bosnia and Herzegovina support have already 
proven their value in calling for tolerance and community 
values instead of division and revenge. Thanks to the Coalition 
Against Hate in Zvornik, as well as to the mayor and Islamic 
community among others, the community there found positive 
common ground after the terrorist attack which occurred there 
in April of last year.
    Our skills and achievements in those areas, and our large 
field network of 10 offices around the country, give us a clear 
view of corruption, the main topic of today's hearing. We are 
engaged with our domestic and international partners, including 
Transparency International, to bring public and media attention 
to the problem, to support reform efforts, and help lessen the 
burden of corruption on the people of Bosnia and Herzegovina.
    It is clear that simply having laws and institutions is not 
enough. Laws must be implemented and obeyed, and prosecutors 
and judges must do their jobs. Furthermore, old patterns of 
political patronage must stop. A lack of transparency in hiring 
employees in public institutions, concealing budgets, and even 
enrolling university students on political grounds blocks 
opportunities for the country's talented young people and also 
obstructs, as we've seen, foreign investment.
    We have geared up our rule-of-law team at the OSCE Mission 
to Bosnia and Herzegovina to monitor corruption cases, where 
there have been far too few convictions. And we strongly 
support the cause of greater transparency. The public has a 
right to know who is working in public enterprises and for how 
much. Both with regard to prosecution and transparency, 
Sarajevo Canton is a particular leader.
    In conclusion, thank you again for this special 
opportunity. A personal note: We have seen each other on 
Capitol Hill, Vilnius and Minsk, Medjugorje and Dubrovnik, 
Belgrade and Tirana, Sarajevo and Srebrenica. Please visit us 
again so I can show you what OSCE in Bosnia and Herzegovina is 
doing, and introduce you to the people whose success is our 
goal. I very much look forward to your questions, Mr. Chairman, 
and to the views of my fellow panelists. Thank you.
    Mr. Wicker. Well, thank you very much. And it has been a 
pleasure to be with you, Ambassador Moore, and to speak to 
individuals in these various locales one-on-one. There's 
nothing like a personal visit, and I certainly think when 
Senator Shaheen gets here she might mention what an honor it 
was to join with Secretary Albright and President Clinton and 
Congressman King in being part of the official delegation to 
the 20th anniversary of the Srebrenica massacre. And I believe 
we made a real contribution in a bipartisan and bicameral way 
in that regard. So thank you for mentioning that, and whenever 
I get a chance I do encourage my colleagues, to the extent that 
we can take care of business at home and for our constituents, 
that we do look to our role internationally.
    And we'll move to Mr. Melia and take your statement, sir. 
Thank you for being here.

THOMAS O. MELIA, ASSISTANT ADMINISTRATOR, BUREAU FOR EUROPE AND 
                         EURASIA, USAID

    Mr. Melia. Thank you, Senator Wicker, for the opportunity 
to testify today on corruption in Bosnia and Herzegovina and 
the region, and on the efforts of the U.S. Agency for 
International Development to address this challenge.
    As Secretary of State Kerry said in his remarks at the 
recent Global Summit on Corruption in London, ``criminal 
activity literally is a destroyer of nation-states.'' 
Furthermore, corruption is a significant obstacle to national 
social, economic and political development--the focus of my 
agency.
    Corruption leads to a weakening of democratic institutions, 
economic decay by discouraging investment, increased 
inequality, and it deprives states of the resources they need 
to advance their own development. In the wider European region, 
states weakened by corruption are also more susceptible to 
malign pressure and manipulation from Putin's Russia, as any 
semblance of a rules-based order often seems to take a backseat 
to power, influence and greed.
    Finally, endemic corruption threatens states by depriving 
them of the most important resource of any democratic 
government: the trust and confidence of its citizens. Where 
public trust is absent, there can be little expectation of 
cooperation by citizens with government to build resilient 
democracies, let alone to do what is needed to counter emerging 
threats like violent extremism.
    For these reasons, the Obama Administration sees addressing 
the problem of corruption--and the need for open, effective 
representative governance--as a significant U.S. national 
security priority. Understanding that, we in the U.S. Agency 
for International Development work with governments, civil 
society, independent media, political actors and citizens to 
build the capacity to limit the likelihood of corruption, and 
to uncover, investigate and punish corruption when it occurs.
    It is a sad fact that corruption is a major problem 
throughout the Balkan region, and Bosnia is no exception. As 
you pointed out in your opening statement, Senator, Bosnia has 
a very low score on the Transparency International Perceptions 
of Corruption Index. More troubling, perhaps, is that according 
to this index, Bosnia is actually losing ground in its fight 
against corruption, its score having fallen by four points in 
the last three years. This is consistent with findings from 
Freedom House's Nations in Transit data series on anti-
corruption measures in Bosnia, and on democratic reforms more 
broadly, which show that the modest gains that were made in all 
measures peaked around 2006, with stagnation or backsliding in 
the years since.
    All of this indicates that corruption in Bosnia and 
Herzegovina is bad, even by Balkan standards, and possibly 
getting worse. When one takes into account Bosnia's multiple 
levels of government and the fact that by some estimates the 
public sector makes up 50 percent of Bosnia's GDP, the depth of 
the problem and its impact on citizens' lives becomes all the 
more clear. Therefore, growing the size and strength of the 
private sector in Bosnia is of critical importance, both for 
the prospect of economic development and as a concrete means to 
limit the impact of corruption by limiting the opportunities of 
public officials to engage in rent-seeking behavior.
    USAID does this in several ways. For example, we have a new 
Development Credit Authority agreement in place with three 
commercial banks, valued at $30 million, as well as three older 
agreements valued at $46 million. To date, these loans have 
enabled the banks to disburse loans to more than 120 private 
firms, supporting close to 2,800 private-sector jobs and 
generating over 500 new jobs in the private sector.
    USAID is considering new opportunities, as well. This week, 
a team of economic experts from USAID is in Bosnia assessing 
what other options may be available to support the country's 
economic growth and prosperity. This is in part in response to 
the proposal that you and other members of this Commission have 
made in sponsoring legislation to authorize an enterprise fund 
for Bosnia. Our team in Bosnia this week is looking at whether 
this would be the right approach, in tandem with looking at 
some of the other mechanisms that we have in place or might be 
able to put in place.
    We are also working to make public finance more transparent 
and accountable, reducing opportunities for irregularities and 
corruption. We have projects that are working to expand 
electronic services for payment of direct taxes and in the 
procurement process in Bosnia so that there are more 
opportunities for competition and for small businesses to 
participate in government contracts, but also there's more 
transparency, which reduces the possibilities for corrupt rent-
seeking.
    Corruption also occurs when local producers skirt 
regulatory standards--think of watered-down milk and other 
diluted products--to keep costs down. And especially when it 
comes to medicines and things like that, it puts consumers at 
real risk.
    We have a USAID project being implemented by Cardno 
Emerging Markets that helps to mitigate corruption by 
supporting agricultural producers to adopt stringent EU 
regulatory import standards. This program facilitated EU 
approval for a number of dairies to export milk to the EU, 
contributing to the economic growth.
    On the demand side of the equation, we support watchdog 
NGOs and investigative journalism, including Transparency 
International, but also including a network of independent 
journalists whose reports connect the dots as part of 
professional investigative journalism, and these civil society 
and journalist stakeholders have brought to light a number of 
corrupt officials and their corrupt dealings. This advocacy is 
critical, since three-
quarters of Bosnia's annual $1.7 billion worth of procurements 
is done non-competitively, and hundreds of these procurements 
are awarded to companies owned or co-owned by elected 
officials.
    We're also working to support the institution of a new 
special anti-corruption unit in the Bosnia and Herzegovina 
federal prosecutor's office, mandated by a 2014 anti-corruption 
law.
    Organized crime often depends on the inability of law 
enforcement to track illicit activity across borders. So that's 
why the journalists and the NGOs who can cross borders and 
report widely on their findings play an important role in 
advancing the exposure and control of corruption.
    In conclusion, though the threats posed by corruption in 
Bosnia to its economy, its public service, and to the state 
itself are great, we in USAID are working with our partners to 
limit opportunities for corruption, uncover them when they 
occur, and see that they are investigated and punished. We're 
doing this together with our European partners, who in some 
cases enlarge our AID programs with donations from other 
governments' donor agencies. We're also working closely with 
other U.S. Government agencies, such as the Department of 
Justice, which provides expert advice and assistance to 
investigators, prosecutors and judges.
    This effort will require significant political will from 
Bosnia's leaders, NGOs and citizens. Progress will not be easy, 
and constraints related to the structure of the constitutional 
system in Bosnia may limit the possibilities for dramatic or 
early progress. Nevertheless, we will remain engaged.
    Thank you for the opportunity to testify, and I look 
forward to your questions.
    Mr. Wicker. Thank you very much, Mr. Melia.
    Mr. Blagovcanin.

   SRDJAN BLAGOVCANIN, CHAIRMAN OF THE BOARD OF DIRECTORS OF 
       TRANSPARENCY INTERNATIONAL, BOSNIA AND HERZEGOVINA

    Mr. Blagovcanin. Thank you very much, Senator Wicker and 
Chairman Smith. Thank you very much for this opportunity for me 
to speak on what I consider a very important topic.
    There are a lot of arguments to rightfully claim that 
corruption is the biggest problem today in Bosnia and 
Herzegovina. Direct damage to the country reaches hundreds of 
millions of dollars disappearing from the budget due to 
corruption. Indirect damage, due to a lack of investment caused 
by corruption, is difficult even to estimate.
    The crux of the problem is political corruption, which 
involves the highest political and public officeholders. Twenty 
years after the war, Bosnia and Herzegovina remains a country 
completely captured by corruption, where it is virtually 
impossible to get any public service without having to resort 
to corruption.
    Most relevant studies clearly indicate that in recent years 
Bosnia and Herzegovina has not seen any progress in 
strengthening the rule of law and the fight against corruption. 
Corrupt political leaders hold sway over key institutions in 
the country. This allows them to use all economic resources of 
the country in their own private interests.
    Political control over the judiciary and law enforcement 
agency allows corrupt leaders to be protected from prosecution. 
There are almost no cases of political corruption that result 
in judgments of conviction. Political corruption is ignored by 
public prosecutors because of political influence.
    The crux of the corruption problems lies in how political 
parties are organized. Devoid of basic internal democracy, they 
operate in a mafia-like manner. Their basic principle of 
operation is based on the distribution of the spoils. Their 
booty are budgetary funds, public companies, and public 
institutions.
    Political elites use clientelistic appointments as the main 
method of exercising control over institutions. In this way, 
political leaders create clientelistic networks, which they use 
to run the country. The real and almost unlimited power lies in 
the hands of a few ethno-political leaders.
    The political leaders are therefore not interested in 
reforms and European integration. They have learned their 
lessons from Croatia and Romania, two countries that had to 
tackle political corruption and prosecute their political 
leaders as part of their process of joining the EU. Therefore, 
the interest of political elites in the country is solely and 
exclusively to maintain the status quo. Any progress in the 
reform implementation directly affects and limits their power, 
and exposes them to criminal prosecution. Therefore, their 
strategy is to rhetorically accept reforms, while in practice 
they only feign reforms.
    Pervasive corruption affects human rights and freedoms. 
Cases of repression against the media and civil society remain 
widespread. Corruption within institutions prevents citizens 
from accessing justice. A backlog of over 2 million cases, in a 
country of 3.5 million people, means that the judicial system 
is completely blocked. Adjudication of disputes takes years to 
complete.
    The consequences of corruption are felt by citizens on a 
daily basis. Corruption exposes them to additional costs to pay 
for health, education and administrative services. Also, 
corruption undermines economic development of the country, 
trapping the majority of its people in poverty and depriving 
them of employment opportunities. The way the market is 
organized has a pernicious effect on the private sector. 
Privileged access to public tenders and privatization processes 
is reserved for cronies.
    Therefore, I want to reiterate what I said at the 
beginning: corruption is the biggest problem in Bosnia and 
Herzegovina today. Without progress in fighting corruption, it 
is not possible to make progress in the implementation of any 
other reform.
    How to make a breakthrough? As Fukuyama rightly pointed 
out, all reforms are inherently political. Therefore, it is 
about generating political will for reforms and not only 
strengthening capacity of the institutions. Leveraging and 
articulating the public's deep mistrust in the government 
through citizens' active involvement in decisionmaking should 
be prioritized in order to avoid another wave of destructive 
protests like those of 2014.
    Past experience shows that simply calling on leaders to 
undertake reforms and to take responsibility is not sufficient. 
Generating a genuine and articulated internal demand for 
reforms is key to achieving sustainable progress. Thus, I 
believe that reforming the way political parties operate and 
introducing internal party democracy would create conditions 
for dismantling the clienteleistic networks run by political 
leaders.
    Another important aspect of the reform concerns the 
strengthening and reforming of the judiciary. The judiciary 
must finally assume responsibility for prosecuting corruption. 
For this to happen, it is imperative to ensure that it is 
independent in its work and free from any political 
interference.
    In any case, Bosnia and Herzegovina still needs strong 
international support in undertaking reforms to strengthen the 
rule of law and fight against corruption. This also requires 
that the current EU reform agenda be expanded to include a 
detailed and specific plan for combating corruption and 
strengthening the rule of law.
    Thank you very much again for the opportunity to serve as a 
witness at this hearing today. And in addition to my written 
statement that I submit, I would like to ask you to include in 
the record a paper that I recently authored for Johns Hopkins 
University. I believe it's highly relevant for the discussion 
today.
    Mr. Wicker. Without objection, it will be admitted into the 
record at this point.
    Mr. Blagovcanin. Thank you very much, Senator Wicker.
    Mr. Wicker. Well, thank you, sir. And that was about as 
breathtakingly downcast a report as I've heard about a country 
in a long time, but helpful nonetheless.
    Dr. Perry.

  DR. VALERY PERRY, SARAJEVO-BASED INDEPENDENT RESEARCHER AND 
  CONSULTANT, SENIOR ASSOCIATE AT THE DEMOCRATIZATION POLICY 
                            COUNCIL

    Dr. Perry. Thank you. And I'd like to thank everyone for 
organizing this hearing today to put this very important issue 
back on the agenda.
    We've heard a number of vivid descriptions about the 
situation of corruption in Bosnia and Herzegovina today. And 
it's clear that the politics of corruption makes meritocracy 
impossible, weakening institutions and promoting brain drain of 
the best and brightest of the country. The politics of 
corruption also results in a system in which floods can 
devastate one-third of a country and no leaders or officials 
are held responsible or are held accountable for their failure 
to prevent, protect, prepare, or respond to such a disaster.
    The politics of corruption weaken the notion of civil 
society, shared purpose and joint vision, instead strengthening 
informal practices, patronage networks and exclusionary 
practices that are particularly damaging to a country only one 
generation removed from the most violent conflict since World 
War II. No political system anywhere is immune from corruption. 
Systems, structures and incentives either encourage or impede 
corruption. Societies ideally organize themselves in a way that 
minimizes corruption and maximizes the public good. This can be 
hit or miss anywhere and no design is ever perfect.
    However, Bosnia's political economy was shaped by the war 
and by the Dayton Peace Agreement that ended it in 1995. Dayton 
was, and remains, a made-in-America product. For this reason, 
it's important that we're having this discussion. The problem 
of corruption in Bosnia is not a technical problem. It's a 
political problem. In the absence of fixing the core political 
problems that both prevent accountability and allow impunity, 
all of the projects, capacity building, technical support and 
money in the world will not overcome the fundamental inherent 
weaknesses and democratic contradictions at the core of 
Bosnia's unaccountable political system.
    In fact, after two decades and literally thousands of well-
intended projects, it's time to consider not only the 
diminishing returns of such approaches, but the broader 
negative impact of such efforts actually maintaining the 
illusion that a system that has failed for 20 years can in fact 
somehow be made to work. Continuing to prop up a system proven 
to be ineffective is akin to hoping that updating the software 
on your 15-year-old computer will help its performance. At some 
point you need to recognize that the problem isn't the software 
but the hardware, and that no patches or workaround will 
improve its performance.
    So what should be done? I'll focus on three specific 
recommendations today. First, a package of legislative reforms 
aimed at reducing the possibilities for official corruption, 
abuse of office and collusion should be developed and 
supported. This would include laws related to conflict of 
interest, political party financing, and freedom of 
information, among others. And Transparency International has 
written on this in the past as well. Laws, by-laws and statutes 
regulating public enterprises also need to be urgently 
overhauled in line with available guidelines and international 
good practice. Many existing USAID and other U.S.-funded 
programs--ranging from support for investigative journalism to 
critical justice sector reform--can be better coordinated and 
recalibrated to support this effort.
    It's important to recognize that there will be political 
and, in turn, institutional resistance to such reform, and 
every effort will be made to evade proper implementation. We've 
seen this happen for years. However, there would be 
overwhelming public support among the citizens. Further, such 
an initiative would be very much in line with the European 
Union's own reform agenda, and in fact the notion that the 
country's business environment can be improved without 
improving this environment of corruption reflects a fundamental 
misunderstanding of the political economy in Bosnia today.
    Second, the lessons of unsuccessful past privatizations in 
Bosnia must be studied, learned and applied by domestic and 
international interlocutors alike to understand both their role 
in further strengthening an oligarchical class of political and 
party leaders, and to understand why part of the country that 
has privatized nearly all of its public assets, the Republika 
Srpska, has in fact failed to enjoy any broad and durable 
economic or social benefits after such privatization. Future 
privatization should be put on hold until such time as there 
are reforms to the broader ecosystem to ensure fairness and 
transparency. Otherwise, the country risks seeing a further 
enriched and emboldened political elite, accompanied by 
questionable foreign investment in enterprises which is often 
more about real estate and asset stripping than about building 
a robust economy for the people of Bosnia.
    Third, it's critical to understand how the election system 
in Bosnia contributes to the lack of accountability and makes 
it not only possible, but natural, for politicians to be 
elected and reelected without delivering anything to their 
voters other than limited and targeted patronage. Much has been 
written about this issue. Current election law reforms being 
discussed will in fact make it harder for new or small parties 
or independents to participate in the political system. This 
will further entrench the dominant political elite and party 
machines that have held control for a generation, further 
eroding the checks and balances needed to fight corruption.
    Substantial election reform is needed so that citizens 
actually know who really represents them at every level of 
governance and can vote them in and out of office; so that they 
have constituent services offices in their community that they 
can address with their interests and concerns, and, most 
importantly, to ensure that people in Bosnia and Herzegovina 
have the chance to be represented on the basis of being a 
citizen, not on the basis of being a Bosniak, Croat a Serb, or 
the always marginalized others. These reforms could effect 
substantial change, and in fact do not require a Dayton II. In 
fact, any elite-driven, foreign-sponsored effort to try to 
engineer such reforms would very likely create a system even 
worse than the one we see today. Instead, reforms need to be 
citizen-focused, combining coordinated top-down support and 
bottom-up grassroots activity to create momentum among all 
political players and squeeze the elites to listen to their 
constituents.
    Bosnia and Herzegovina is a small country of less than 4 
million people. And it's fair to ask why the U.S. should 
continue to spend time on it, considering the many other 
foreign policy priorities and humanitarian crises facing the 
world today. The answer is simple: If the U.S. and its partners 
cannot support the development of a functional and accountable 
system in Bosnia, how can it possibly hope to support positive 
and peaceful political outcomes in other parts of the world? If 
the U.S. and its partners do not learn the lessons of failed 
postwar power sharing in Bosnia, there is the potential that 
similar foundational weaknesses will be introduced into other 
areas in crisis around the world, creating an illusion of peace 
and stability while corruption and spoilers flourish, social 
discontent is manipulated and society becomes entrenched in a 
state of frozen conflict.
    Finally, the same systemic failures and factors that allow 
corruption and unaccountable governance to thrive in these 
frozen conflicts actually foster the civic marginalization, 
social alienation, and in the worst cases enable the rise of 
extremist groups and radicalized individuals seeking extra-
institutional remedies to political and social maladies.
    In closing, corrupt politics and the pain of an economic 
transition which has delivered very little benefit to the 
majority of people have not only reinforced public frustration 
with the post-war situation, but has revealed increasing 
dissatisfaction among people with the very ideas of democracy 
and capitalism, promotion of which have been some of the core 
U.S. foreign policy goals for more than two decades.
    It's not too late to reverse these recent negative trends, 
though the clock is ticking as social divisions have reified 
and hardened in the divide and rule politics of the past 
generation. More ethnic politics and virtual partition will not 
help. Laws, strategies and initiatives that seek to hardwire 
accountability into the system, backed up by meaningful 
conditionality and enforcement mechanisms, can. I'm hopeful 
that this hearing will put this discussion back into the 
spotlight, and generate momentum for the change that's so 
desperately needed if the promise of Dayton Bosnia is to be 
fulfilled. Thank you.
    Mr. Wicker. Well, thank you very much, Dr. Perry. And I do 
think everyone in the room can agree that the statements made 
have been vivid today. And obviously we have a lot of room for 
work.
    It's my pleasure now to recognize Chairman Chris Smith for 
whatever opening statement he might have.

HON. CHRISTOPHER H. SMITH, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman.
    In lieu of the opening statement, I would ask consent that 
it be part of the record since we're well into the hearing.
    Mr. Wicker. Without objection.
    Mr. Smith. And I thank you, because this hearing was your 
idea. I thank you for chairing it and for bringing us all 
together. This is extremely important and very, very timely.
    Just a couple of questions. And I'm sorry I missed some of 
the testimonies. We had votes on the House floor--Mr. Perry as 
well--so that's why we are late.
    Mr. Melia, in reading your testimony you've made some 
excellent points about the importance of journalists. As we all 
know, in Azerbaijan, a Radio Free Europe stringer, or reporter, 
Khadija Ismayilova, was released. She had a seven-year prison 
sentence. We actually had a hearing of the Commission on her 
and the concerns that an American--you know, a woman writing 
for Radio Free Europe was arrested because she exposed just 
that, corruption, everything we're talking about today. We're 
awaiting more details about what has happened, but you talked 
about your journalist initiative and how important that is. And 
I'm wondering how unfettered those journalists really are. Are 
they able to report robustly, go anywhere, report any time 
without fear of retribution, physical or criminal liabilities?
    Secondly, let me ask a question about the about the 
noncompetitive contracts you talked about, which obviously are 
a grave invitation for fraud of the highest order. All of you 
might want to speak to this--in our efforts to promote reform 
are we pushing low-bid and, even more importantly, best value? 
We've found in our procurement here in the United States that 
it's not always necessarily the lowest bid, but best value 
where objective criteria used by the procurers to ensure 
they're getting the best deal from competent vendors? And it 
seems to me, since so many of these contracts are 
noncompetitive, we've learned so many lessons in America about 
sole-source procurement. Sometimes it works. Sometimes it 
absolutely does not. And many times, particularly at the state 
and local level where there's even less transparency in the 
United States, a lot of people make a lot of money illicitly 
using noncompetitive sole-source contracting.
    Thirdly, several weeks ago I met with Ms. Munira Subasic 
from the Association of Mothers Action of the Srebrenica and 
Zepa Enclaves. She herself lost her husband, son and 20 others 
at Srebrenica in July of 1995. Her frustration today regards 
the seeming impunity of hundreds of people, an estimated 850, 
implicated in the violation of international humanitarian law 
during the war who had their cases transferred from the 
international tribunal to the Bosnian courts. To this day these 
cases have not been processed, not one of them, which is 
outrageous on the face of it. And my question would be the 
extent to which corruption in law enforcement may be playing a 
role in that prosecutorial discretion where they do nothing.
    On trafficking, a similar issue. The numbers have gone down 
in terms of prosecutions and convictions. We're awaiting the 
most recent TIP report. It will come out shortly. We'll get a 
better feel for where Bosnia is. But it was tier two last year. 
And the prosecution side of the report points out in 2014 one 
prosecution, no convictions in 2014. That's not a good record. 
And we know in the United States, every country, the 
commodification of women, the selling of women is increasing, 
not decreasing. We just had a major briefing of that last week 
from some of the NGOs that are involved, including ECPAT, which 
is the End Child Pornography and Trafficking organization. So I 
ask you what role corruption might play in that.
    And finally, Mr. Chairman, when we were at one of our OSCE 
Parliamentary Assembly meetings--I believe it was 2000, in 
Bucharest--it was all about corruption. As you pointed out, 
Secretary Kerry's statement about how it ruins democracies. And 
that's exactly what that entire conference was about, how it 
hijacks democracies and is the equivalent of the worst of the 
worst of human rights abuses.
    Mr. Melia, if you would start.
    Mr. Melia. I can take a crack at a couple of those. I think 
Ambassador Moore and the others may be better suited to respond 
to your latter couple of questions.
    Let me say on journalism, you asked if the investigative 
journalists are unfettered and able to do their work. They are 
to a large extent, although a lot of their work doesn't get 
reported in the mainstream media. There's a fair amount of 
sensationalist faux-
investigative journalism where scandals of one politician 
leaking information about his or her rival pops up in the 
newspapers or on television--that kind of clouds the discourse. 
The work that we support through the RIJN, which is the 
Regional Investigative Journalism Network, which is connected 
to the larger worldwide Organized Crime and Corruption 
Reporting Project, which got so much attention with the Panama 
Papers release in recent weeks, is dedicated to professional, 
fact-based, triple-checking-your-sources kind of journalism.
    It's led by an American reporter from the AP named Drew 
Sullivan, who has trained a generation of journalists across 
the wider region, including Khadija Ismayilova, who you 
referred to. It was great news today that she was released on 
the eve of her 40th birthday. I don't know if that was 
coincidence or not. But I think the worldwide campaign against 
her unjust imprisonment had a lot to do with it as well. So 
she's a part of this network. It was founded in Sarajevo 20-
some years ago, and grew region-wide from this very place. And 
so their work may not always be on the headline evening news in 
Bosnia, but it does get out and is around and is a constant 
fact-based source and a key reference point. So it does have an 
impact, even if it's not always on the evening news.
    On procurement, which as I think we've all said in 
different ways and, as you know, is where political corruption 
interfaces with economic perversion of the marketplace. In 
Bosnia, as in a number of other countries from Ukraine 
throughout the region, where we have willing partners in 
legislatures and in ministries we do have a number of 
programs--and this is true in Bosnia--where we are helping to 
build out systems for increasingly transparent electronic 
procurement so that it's out there what's being sought by a 
government agency. On the one hand, it enables additional 
bidders to get involved, so small businesses who may be located 
in small towns or remote from the capital get a chance to get 
in the marketplace. This contributes to lowering prices in some 
cases. But it is also clearer what the government is buying, 
and for how much.
    This is a work in progress. These systems get designed, get 
legislated, get put out there in regulation. I would say in all 
these countries, including in Bosnia, we're in midstream in 
trying to help build them out and get people trained to use 
them, and then increasingly put more and more stuff online into 
these systems. So I think the electronic age has many ups and 
downs in our lives, but I think in this one regard e-
procurement is an important step for combatting corruption.
    Mr. Smith. Yes, Ambassador Moore.
    Amb. Moore. Chairman Smith, thank you very much for the 
opportunity. We look forward to seeing you back in Bosnia 
again. Enjoyed our trip together to Medjugorje.
    Let me just make some quick responses. First of all, when 
it comes, of course, to media freedom OSCE works very closely 
with a citizen of Bosnia and Herzegovina, Dunja Mijatovic, who 
is in an additional year as OSCE's representative for freedom 
of the media. Our mission and our media team work very actively 
directly with journalists, of course, and editorial offices and 
all around the country to support them.
    There have been some very concerning cases of raids of 
editorial offices, including by police armed with weapons, the 
seizure of computers, as well as individual assaults against 
journalists, most recently in the town of Visegrad, when 
journalists trying to report on a rally of the so-called 
Chetnik Movement were assaulted. These cases need to be 
investigated and prosecuted. The authorities responsible for 
rule of law as well as the police need to keep in mind what the 
rights and freedoms of journalists are. We use our voice--
hopefully--eloquently, but we have certainly not solved the 
problem. It is a big part of what we try to do when it comes to 
media freedom issues.
    On transparency, we had the chance slightly earlier to talk 
about absolutely the need for transparency so that people know 
what is being spent in the name of the citizens, how many of 
their taxes are going to whom, what the salaries are, who gets 
what jobs. I pointed to Sarajevo Canton as a particular good 
example of this. Working with the media, they released salary 
information, the names of key employees in all kinds of public 
institutions. And although people know that corruption is 
everywhere, it was extremely interesting for the public to 
actually have the facts to see how outlandish and excessive a 
number the salaries were. We very much encourage that. And that 
example in Sarajevo Canton needs to be repeated throughout the 
country.
    And thank you also, of course, for mentioning Munira 
Subasic and other Mothers of Srebrenica. We spend a tremendous 
amount of time with them. Munira has asked for the support of 
the OSCE mission. And just a couple of weeks ago we co-
sponsored a conference where we also brought in Serge 
Brammertz, the chief prosecutor of the court in The Hague, to 
talk about exactly this sort of issue. There are too many 
unresolved cases. The war ended more than 20 years ago and 
Munira and the other mothers, the other survivors, and in the 
name of the people--victims of genocide and war crimes, they 
need to be--that needs to be respected.
    Criminals need to be brought to justice. The OSCE mission 
supports this process; we're working with judges and 
prosecutors at different levels, we've engaged a very 
comprehensive expert-level analysis to make sure that the 
courts and the prosecutors, especially at the state level, are 
doing their job. We hope to have the results of that in the 
near future. It is unacceptable to all of the victims and to us 
that more persons have not been brought to justice there.
    Mr. Smith. Did anybody want to touch on trafficking and the 
decrease in prosecutions and convictions?
    Amb. Moore. With regard to trafficking in persons, yes, 
you're exactly right. Of course, you know very well that the 
report will be coming out soon. I don't know what the content 
of that report will be, since I am coming from OSCE structures. 
But on all levels, we want to see more prosecutions brought 
about. Sarajevo Canton is a good example of this because young 
people and women who have been victims have not felt 
comfortable coming forth with testimony and speaking directly 
to prosecutors.
    With our assistance, the prosecutor in Sarajevo Canton has 
specifically made space and reached out to victims, so that 
they feel more comfortable coming into the office and telling 
their stories. They're concerned that there might be 
retribution against them. And the prosecutor there, Dalida 
Burzic, has done an excellent job of creating a welcoming 
atmosphere so that victims of trafficking can also feel that 
their rights are upheld.
    Mr. Smith. Thank you, sir.
    Mr. Wicker. We are joined by Representative Scott Perry of 
Pennsylvania, Representative Robert Aderholt of Alabama, and my 
colleague Senator Jeanne Shaheen of New Hampshire.
    Representative Perry, do you have questions for the panel?

HON. SCOTT PERRY, REPRESENTATIVE FROM THE STATE OF PENNSYLVANIA

    Mr. Perry. I do, sir. Is now the time?
    Mr. Wicker. Now is the time.
    Mr. Perry. Excellent. Well, I apologize also for being late 
and missing your testimony--Dobar dan!
    I know the discussion is generally about corruption, but I 
do have something I think potentially relates to at least some 
types of corruption, if not the corruption of society in 
Bosnia, and particularly with their security situation, in 
particular the security risks that relate to the infusion of 
Saudi financing for things such as the King Fahd Mosque, which 
was associated with the teaching--I guess at least the 
teaching--and some of the rhetoric for the attacks in Paris 
and, of course, some of the ammunition and the weapons came 
directly through Bosnia. And I'd like to hear some comments on 
that as well.
    And, Dr. Perry, I'm sorry I missed your presentation. We 
just went over trafficking, but I'm interesting in your 
solution set for governance. When I was there, I was with the 
Stabilization Force. And I know it was stabilized. Nobody saw 
that as long lasting or efficient in any way. And quite 
honestly, I'm amazed that it's lasted as long as it has. But 
I'd like to know your perceptions--as shortly as you can, or as 
briefly as you can--about what America's involvement in that 
regard should be. With those two questions.
    Mr. Wicker. OK. Shall we start, then, with that question 
and then we'll go to the issue of the issue of the influence of 
foreign money? Dr. Perry.
    Dr. Perry. Thank you for getting right to the core of the 
crisis of political accountability in Bosnia. Over the last 20 
years there have been a number of different efforts to try to 
re-engineer the structure and the politics and the constitution 
of Bosnia. And none of them have succeeded for a variety of 
different reasons. Now there are a lot of different actors who 
feel that the main way to move the country forward is by EU 
accession. And everybody does agree that EU membership would be 
good for the country. It's just not going to happen anytime 
soon. It took 12 years for Croatia to finish its accession 
process. And Croatia agrees that it's a country. And that's 
something that's still lacking in many ways in Bosnia and 
Herzegovina.
    However, it doesn't mean that it's impossible to try to 
look for some fundamental changes in the system in Bosnia. For 
example, there's a number of structural reforms that could make 
a big difference and also demonstrate to citizens, to civil 
society, to regular people that change is possible. For 
example, there is no ministry of agriculture of Bosnia and 
Herzegovina, no state-level ministry of agriculture, which has 
led to numerous roadblocks in terms of people being able to 
export their goods. While there has been a lot of technical 
support to try to help dairy farmers and others to be able to 
meet the criteria at various levels to export their goods, in a 
market of 3.5 million people, the notion that there's no 
concerted statewide agricultural development strategy is, quite 
frankly, a bit ludicrous.
    And what's even most frustrating is that there is quite 
broad public support for this. A majority of Serb citizens in 
the Republika Srpska surveyed recently, but also going back to 
2013, support this because they recognize that they're losing 
from this current system. Developing a set of reforms to the 
constitution to allow for a ministry of agriculture would 
demonstrate that this is possible and that the sky does not 
fall, that people are no more or less a Bosniak or a Serb or a 
Croat than they were before. And it would also show civic 
groups, NGOs, that change is possible and that they can drive 
it. And so I would want to support that. There's other low-
hanging fruit related to health care reform, which would enjoy 
very broad support, and a campaign on trying to ensure and 
promote health care mobility around the country, which doesn't 
exist, would be another fundamental structural change that 
would be possible.
    These structural changes would also, in the longer term, be 
complemented with some fundamental changes to the way that 
people elect their representation. If you ask the average 
Bosnian citizen who represents them in the state or entity or 
cantonal parliaments, they can't give you a name. Sometimes 
they'll say, well, this party does, but they can't tell you 
somebody who they can hold accountable. And this is a 
reflection of the system, the election law, and the 
constitution, which the parties, quite frankly, like because 
this way it's harder to be voted out for failing to deliver for 
your constituents.
    The one layer of government that does function the best is 
the level of the municipality. And I don't think it's any 
surprise that mayors are directly elected. The problem is that 
if you keep the system in place right now, the mayors hit a 
ceiling. There's only so much they can do because almost all of 
the money is controlled by the ethno-dominated cantonal and 
entity budgets. And it's always manipulated.
    We saw some very interesting examples of some very good 
mayors who responded appropriately in the 2014 floods. And 
those who sought to try to work across party or ethnic lines 
were often punished in the media and by a number of other 
politicians who want to keep these issues alive. So again, I 
would argue for an effort to look at some structural reforms in 
the short term, to create some new state-level competencies 
supported by citizens, but then also try to find a way to make 
sure people know who represents them and that there's actual 
responsibility and accountability in that relationship.
    Mr. Wicker. Before we get to part two, Dr. Perry, Mr. 
Blagovcanin suggests that laws need to be amended with regard 
to the political parties. Apparently you agree with that. If 
both of you could comment on what specifically is wrong with 
the laws governing how the parties operate, and how does that 
contribute to corruption?
    Dr. Perry. Sure. One law is the law on political party 
financing, which creates an awful lot of ambiguity about money 
coming in from public enterprises and other sources, and then 
funding not the public good and not politicians, but funding 
party machines in a very cronyistic manner. And so this could 
very easily be amended. When you look at a number of other 
pieces of legislation, there's no requirement for transparency. 
So again, as was noted earlier, it's very difficult for people 
to find out what's going on and to really be able to hold 
people to account in that way.
    I would also now note that when we're looking at some of 
these issues of political party democracy inside the parties, 
because of the way that electoral units have been gerrymandered 
following the war, creating generally ethnically clean election 
districts, this means that there's never ever any reason to be 
moderate or to put your hand across to the other side. In fact, 
it behooves you to be extreme and to keep ethnic fear and 
tensions alive. And until that changes, we're not really going 
to see anything positive happening. And we've had a couple 
interesting examples where a political party will lose a 
substantial number of municipalities in local elections and 
there will still be no change in leadership in that party. This 
is not normal politics. Usually when a party substantially 
loses there is change in the leadership at the top. But that 
does not exist because it's still a very clientelistic system. 
And I'm sure Srdjan would be able to provide some more light on 
that.
    Mr. Wicker. Mr. Blagovcanin, is it public money or is it 
donor money, as Dr. Perry put her finger on the problem?
    Mr. Blagovcanin. I would say it's public money, but in 
addition to that----
    Mr. Wicker. It's taxpayer money?
    Mr. Blagovcanin. Exactly. But in addition to that, I would 
like to add to what I mentioned in my statement, that I believe 
that the key problem when it comes to political corruption is 
how political parties are organized. Without internal 
democracy, political parties are functioning like mafia 
structures. Their only goal is to secure spoil. And spoil is 
public finances, public institutions, public companies. So I 
believe that introducing legislation which will provide for 
internal democracy inside the parties would be extremely 
important to democratizing the country as whole.
    Mr. Wicker. Now, before we move to Senator Shaheen, 
Ambassador Moore, can you help Representative Perry and the 
panel out on the issue of the influence of foreign money coming 
in?
    Amb. Moore. Absolutely. Mr. Perry, thank you very much for 
your question on the issue of radicalization. Terrorist attacks 
in Bosnia and Herzegovina, much more than in many other 
countries, fundamentally threaten the country's stability. We 
have recent numbers which are probably low estimates that there 
are 130 citizens of Bosnia and Herzegovina in Iraq or elsewhere 
in that region, part of Daesh or other forces. About 43 of them 
have been killed in that fighting. About 50 have returned. And 
they're being tracked very carefully, although I have to say 
that sort of work is not the kind of work that OSCE directly 
engages in.
    Radicalization is a huge problem. There are certain 
questions, obviously, about how some of the funding gets to 
Bosnia and Herzegovina. There have been huge--theoretically 
humanitarian--donations to fund the building or rebuilding of 
religious institutions, houses of worship, in different parts 
of the country. The issue of fundamentalism and increasing 
radicalization, especially through social media, the Internet, 
in some cases people who've returned from Syria who are trying 
to recruit people to go to Syria, is a very comprehensive 
problem.
    At the same time, I would say it's slightly outside the 
scope of the OSCE mission, which doesn't cross lines into 
intelligence work. Our focus is on working more directly with 
the public. And we've had a lot of success with local 
communities where mayors and neighbors and the Islamic 
community, Catholic and Orthodox communities, are very aware of 
what's going on in those communities. They come together to 
talk about community values. That's something actually the OSCE 
mission in Bosnia and Herzegovina supports--19 coalitions like 
that around the country. After some concrete terrorist attacks 
like the one in Zvornik in April last year, the community came 
together again. Instead of calling for revenge, Orthodox and 
Islamic leaders sat down together and said: This is not what 
our community is about. We have to investigate this. We have to 
move forward. We have to come together. So it is a 
comprehensive issue.
    In terms of exact sources of funding, some of them are 
private, some of them come through, of course, states. You 
mentioned the interest of some countries in the Middle East in 
Bosnia and Herzegovina. There are, of course, individuals--that 
seems to be the bigger problem--who were radicalized, who 
came--in fact, I'm sure you're very familiar from your military 
service with those who came to Bosnia to help fight on that 
side--and some of them have stayed. Not enough of them have 
left. But the level of radicalization in society is a huge 
problem. And again, while any terrorist attack has terrible 
consequences for the victims, in Bosnia and Herzegovina it 
could really tear the country apart. So we pay very close 
attention to this and, speaking on behalf of the OSCE mission, 
particularly at the local level, as well as with the Ministry 
of Security.
    Mr. Wicker. Before I recognize Senator Shaheen, Dr. Perry, 
have you observed, as have I, that mayors trained in New 
Hampshire are really better mayors in Bosnia and Herzegovina?
    Dr. Perry. Perhaps we should start sending more politicians 
to train. No, it is interesting, though, that for the past two 
decades, there have been a lot of different capacity 
development efforts to try to build a new cadre of political 
leaders. But there's very little that we can see that has 
actually transferred into the day-to-day business of politics. 
It's very difficult to make that leap. Either people go to New 
Hampshire, fall in love with it, and decide to never leave and 
never go back to Bosnia. Or, sometimes if they go back to 
Bosnia, they seek to try to change things from within, but they 
get so frustrated because they're not actually able to 
operationalize the new things they learn, that they either give 
up or try to go and get a job at an embassy or the OSCE or 
someplace else that's a little bit better than the private 
sector.
    And so it's very difficult to try to find examples of 
individuals who have been able to make it past this ceiling to 
try to really change the level of discourse in politics. And 
this is after 20 years and probably thousands of people trained 
by either American or other funds.
    Mr. Wicker. Senator Shaheen.

 HON. JEANNE SHAHEEN, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mrs. Shaheen. Well, for those of you who don't know, 
Senator Wicker was referring to the mayor of Srebrenica, whose 
family fled to New Hampshire after the massacre and who went 
back and became mayor. So we're very proud of him.
    I want to follow up on that line of questioning because I 
think you mentioned, Dr. Perry, that there are enclaves of the 
different ethnic groups and that sort of has gotten baked into 
the way government works in the country. How much of that is 
the result of the Dayton Accords and how much of it can 
actually be changed at this point?
     I was struck--and I'm sure everybody on the panel has been 
to the country--but I was struck when I was there that much of 
the challenge around getting people to work together seemed to 
be based on the fact that when the peace was set up after the 
war, the country was so divided by ethnic groups that it was 
very hard to think about how to get people to work across those 
ethnic lines for the benefit of the whole country.
    So I wonder if you could speak to that and to the extent 
that that's baked in, and is there a way to fix it. You talked 
about some reforms, which I think make a lot of sense, but it 
sounds like those are sort of tinkering around the edges.
    Dr. Perry. Sure.
    At the 20-year anniversary of Dayton event in Dayton this 
past November, it was interesting to see that pretty much 
everyone who was there noted that when they were working on the 
Dayton Agreement and the Dayton constitution, that they never 
thought that the structure would remain in place 20 years 
later. There was always an assumption that the issue would be 
readdressed and overhauled at some point because they 
recognized the inherent contradictions within the draft even as 
they were doing it.
    But that fundamental reform hasn't happened, and you're 
right that we've ended up seeing instead municipalities, 
cantons, entities and then the state level, and even the lower 
levels have really been dominated by various ethno-national 
issues, meaning that there is no sense of political ideology in 
the country in terms of left-right. It's just, you know, they 
are crooks, but they are our crooks and people feel a need to 
try to protect that in that way.
    What's frustrating is that many people look at the war in 
Bosnia and say it wasn't an ethnic conflict; it was a conflict 
about power and influence in which ethno-national issues and 
religion were manipulated by the leaders fighting it. But now, 
20 years later we've seen that a number of these identity 
issues have begun to harden in a way that will not be fruitful 
for the long-term future of the country. There is no incentive 
for cross-group coordination. While there's nothing technically 
preventing a number of municipalities in Herzegovina from 
working together to develop a business enterprise zone, the 
political parties don't want to see it because they want to 
maintain the control that they have within the current 
environment.
    And what's most troubling to me is that when I see people 
who are my age, different people who are parents, et cetera, 
they remember what joint life was like. They remember what it 
was like to fall in love with someone from the other side and 
to go to concerts and to travel. Their children don't have 
that. There have been a number of different efforts, mostly 
with foreign funding, including the OSCE, to try to bring kids 
together on different study trips, et cetera. But these are 
never, ever done by the local officials, and they're never done 
with any real effort to try to change the education system.
    And I think this is one of the big risks. The problem in 
the education system is not about school buildings. It's about 
what children are learning. Right now we have a system where 
there is essentially a Catholic curriculum, an Orthodox 
curriculum and a Muslim curriculum, and about 40 percent of 
this content is different among the three. So children are 
growing up and coming of age and never being able to see that 
they're citizens of the same society. And until we tackle what 
children are learning, the future looks grim.
    And I would also just point out that this is very much 
related to radicalization, because the lack of having any 
critical thinking, media literacy and analytical thought 
mainstreamed into the primary and secondary school systems 
means that a lot of people, especially in poorer rural areas, 
don't have the skills to try to counter effective grooming by 
radicals.
    And so, unfortunately, educational reform is necessary in a 
substantial way, and the politicians and political parties will 
resist it because the best way to maintain control is by making 
sure that citizens can't question the system, and don't know 
how to change a system in which they're not being served.
    Mr. Wicker. Representative Robert Aderholt is chairman of a 
subcommittee on the Appropriations Committee in the House and 
is vice president of the OSCE Parliamentary Assembly.
    Robert, we're glad to have you join us.

 HON. ROBERT B. ADERHOLT, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Aderholt. Thank you, Senator. It's good to be here. 
Thanks for everybody being out for this hearing.
    Dr. Perry, you mentioned something I want to just follow up 
on. A little earlier you talked about the way that districts 
are drawn and you said they're drawn in such a way where there 
is no encouragement to reach over to the others. Expand on that 
a little bit and talk about how these districts are drawn and 
if there is any way that you see that this could be changed for 
the future.
    Dr. Perry. Unfortunately they largely reflect the ethnic 
cleansing that happened during the war and then the 
legitimization of all of these various units of administration 
after the Dayton Agreement.
    The sad fact is a lot of municipalities and regions that 
were once quite mixed are now more or less homogenous. And 
that's been maintained, and would take some time for that to 
reverse. Return has not been complete because of the many 
political impediments over the past 20 years as parties have 
sought to maintain homogenous districts. I wouldn't seek to 
start trying to change lots of lines of municipalities, et 
cetera, but there are different ways that you can change the 
vertical integration among the various levels of government to 
try to have more political responsiveness in terms of the 
election systems.
    Right now nobody needs to campaign on issues saying, you 
know what, I cleaned up the community park, I put lights in and 
I've gotten a new highway paved. They basically campaign on 
issues of us-versus-them ideology and then also on patronage, 
basically promising that they'll continue to pay privileged 
pensions to veterans of their group, that they will continue to 
pay various different payments and subsidies to their people, 
as opposed to an actual issue-based campaign.
    And unfortunately, I'm pessimistic that this can change 
because over 20 years a lot of very smart people, from the 
National Democratic Institute, from a number of different USAID 
agencies and European agencies, have sought to try to change 
this to create an environment where issues are front and 
center. And after 20 years it really hasn't changed, and the 
elections we saw over the past couple cycles were more of the 
same. And in fact, the election results in 2014 took us back to 
the same parties that started the war in 1991 and 1992. So I 
think there's a need to sort of try to fundamentally look at 
where are these points that are keeping this ethnic system in 
place?
    Mr. Aderholt. So where we would see this is like, for 
example, in Republika Sprska. When the parliament meets in 
Banja Luka--I think it's Banja Luka where the Republika Srpska 
Assembly meets--they would have the districts drawn within the 
Republika Srpska are very ethnically----
    Dr. Perry. More or less. I mean, one very interesting thing 
right now is that while a census--the first postwar census was 
conducted in 2013--the results have not been released because 
the various political parties can't agree on how the data 
should be counted or analyzed. And this is because they really 
don't care about some of the basic census issues we would think 
of: how many people live in a family, what their roof 
construction is made out of and whether they get their water 
from a well or from a sewer system, a public system. All they 
want to do is try to consolidate and formalize the ethnic 
redistribution that has happened over the past number of years.
    In Republika Srpska you do have some areas where return has 
been moderately successful. However, it's still much more of a 
majority-minority relationship as opposed to any sort of joint 
ideologically driven, issue-driven coalitions at any level of 
government. And unfortunately, as time has passed and as return 
slowed down, and in a number of cases has even reversed, it's 
getting harder and harder for people who are either a minority 
or who choose not define, to try to find any political home and 
influence the system, which is creating a cycle where dominant 
ethnic politics is getting even stronger instead of weaker.
    Mr. Wicker. Mr. Melia, you mentioned that you are--I guess 
USAID is looking at S.2307, the Bosnia and Herzegovina-American 
Enterprise Fund Act, authored by Senator Wicker and Senator 
Shaheen, and that you're not quite sold on it yet. As you know, 
this bill would authorize an enterprise fund modeled after the 
support for Eastern Europe Democracy Act of 1989. It would fund 
small- and medium-sized enterprises. It would be directed by a 
board of six American investors. USAID would be involved. It 
doesn't score, I assume, the appropriation bill funding it 
would score but it is presently scored as having no cost.
    What needs to be done, in the opinion of any of you that 
are familiar with this act, to make it work? And is it an 
opportunity for us to put some conditions there that the 
enterprise fund would kick in if progress or steps were made in 
the direction of a more pluralistic approach to government and 
concrete steps to avoid corruption?
    Mr. Melia. Two kinds of thoughts in reaction to the 
proposal come to mind. One is that, to the extent that a new 
enterprise fund might make sense--and it might--I would ask the 
question about whether it should only apply to Bosnia and 
Herzegovina. As we look around the region, we've had these 
enterprise funds in Albania, in Bulgaria and Romania, and then 
further to the north in Hungary, Slovakia, Poland and the 
Baltics. So one question would be: Why only Bosnia and 
Herzegovina? There are other countries in the neighborhood that 
might be in the same situation. So that's one question.
    The second question or second set of issues is really about 
what the need for it is in Bosnia and/or in other countries. 
That's why we have a team on the ground now of finance experts 
who are doing dozens of interviews with people in the business 
world, in the banking sector to explore the credit marketplace 
there. In part, this is driven by the bill. We wanted to get a 
fact-based assessment in order to inform our reply to it or our 
suggestions on how it might be refined.
    Mr. Wicker. And we appreciate that.
    Mr. Melia. So that assessment is underway now. We have a 
team out there that will be back in the next week or two and 
we'll be putting together a report that we'll share hopefully 
before the legislative process advances much further.
    We have in place five finance mechanisms in Bosnia and 
Herzegovina. They're called Development Credit Authority 
guaranties, which essentially provide kind of backstop loan 
guarantees for banks to invest more readily in small and medium 
enterprises and in privatized businesses. They have not been 
fully subscribed. That is, there's money on the table that 
could be lent out to businesses that has not been borrowed.
    Part of the assessment is looking at why that is, why 
there's money available to be invested in businesses and the 
businesses aren't asking for it. It may be administrative or 
other hurdles. It may be a lack of awareness of how credit 
works. Obviously the lending authority is different than an 
equity investment that was the hallmark of the earlier 
enterprise funds.
    They actually bought stakes in companies and, through that 
ownership share, would provide technical assistance on 
corporate governance and business development and all that. So 
it was more than just a loan from a bank. It was a loan with--
or it was an investment with--benefits, and it came from the 
know-how of the people involved in the enterprise funds.
    So that's the difference. If there's this alternative 
model, which is the enterprise fund as opposed to the credit 
authority, that would make a difference in way that makes sense 
in Bosnia, then we'd be----
    Mr. Wicker. Have they worked anywhere?
    Mr. Melia. Yes, they've worked in several places. If you 
look at the----
    Mr. Wicker. But where could you point us?
    Mr. Melia. Well, nearby in Albania.
    Mr. Wicker. Albania has been a success, on balance?
    Mr. Melia. There's been a number of businesses that were 
jumpstarted and rebooted and succeeded. And the fund then sold 
off its shares and cashed out at a certain point and the 
businesses went on their way.
    Mr. Wicker. Was it 30 million [dollars]?
    Mr. Melia. Albania, I don't recall offhand. It may have 
been 30 million [dollars] was put in there originally.
    Mr. Wicker. OK, well, let us know on the record other 
success areas.
    You know, why Bosnia and Herzegovina? Senator Shaheen, I 
think it's for the same reason we're having this hearing, for 
the same reason that we have a capacity crowd in here, it's 
that the very power and influence of the largest superpower in 
the history of the world was brought to bear to end a 
conflagration and to see if we can make pluralism work in the 
area that gave rise to the term ``balkanization.''
    Ambassador Moore, do you have any thoughts to add? I'm sure 
you don't, but--[laughter]--let me pull them out of you.
    Amb. Moore. Mr. Chairman, I'm a diplomat; I always have 
thoughts. Thank you for the opportunity.
    Mr. Wicker. And on the one hand--[laughter].
    Amb. Moore. I only have one hand.
    Mr. Wicker. OK.
    Amb. Moore. I swore the oath to the Constitution of the 
United States with it.
    To be clear, there are some success stories. And we've 
found it very successful to focus on them. Senator Shaheen made 
reference to the mayor of Srebrenica. The mayors in towns like 
Zepca and Zvornik and Bijeljina, they are multiethnic 
communities. They don't have the balance they had. Valery is 
exactly right to point out that there hasn't been enough 
return, but you have Serb majors trying to talk about the 
rights of their Bosniak fellow citizens. Again, I quoted the 
former speaker: All politics is local. Absolutely. All the more 
so in the Balkans.
    A way to focus and highlight and perhaps fund--whether it's 
brick-and-mortar projects or it's to support entrepreneurship 
in those communities where mayors have reached out to all of 
their fellow citizens to try and make a difference, to try and 
counteract all of the tensions and the divisions that were, 
it's true, enshrined in the Dayton Agreement--there are some 
positive examples that we can build on. When those 
opportunities are shown in a certain set of communities, they 
can be seen elsewhere.
    Reference was made earlier to the fact that before the war 
everybody lived together. Well, yes, they did but they still 
went to war. Just having them live next to each other isn't 
enough. This is why our focus, of course--following the 
guidance from the Helsinki Commission and looking at human 
rights--it's not just, yes, I have a neighbor who is one of 
``those'' but their kids go together to the same schools, they 
work in the same enterprises, they respect each other's right 
and freedoms, they celebrate each other's holidays together. 
That's a very comprehensive project.
    And Valery is right in that framework too. Political 
parties are very reluctant and generally unwilling to do that. 
It's the sort of thing that the international community can 
encourage. OSCE is trying to do that on the ground there. Your 
visits and your attention help to foster that as well. There 
are so many people telling good stories and doing good things. 
Unfortunately, they may be the exception rather than the rule, 
but we need to support them.
    Mr. Wicker. Mr. Blagovcanin.
    Mr. Blagovcanin. I just need to add one thing. Sometimes, 
or even maybe oftentimes, a religious community or communities 
in Bosnia and Herzegovina are playing a role which is not quite 
positive. Sometimes the orientation is towards homogenization 
of the ethnic groups in Bosnia and Herzegovina, and sometimes 
they are inspiring interethnic problems in terms of hatred and 
similar things. So that's just in addition to positive 
examples. Since I'm not a diplomat, I'm always trying to find 
the negative. [Laughter]
    Mr. Wicker. Senator Shaheen.
    Mrs. Shaheen. Well, thank you.
    I would add to why is this room full and why does this 
hearing matter the fact that what happens in Europe matters to 
us, that the trans-Atlantic partnership is critical to our 
security and that, as we've seen, one of the places that is 
still not whole, free and at peace in Europe is the Balkans.
    And so it is not in our interest, just as I think it's not 
in Europe's interest, not in Bosnia and Herzegovina's interest, 
to have continued ethnic strife, to have continued recruitment 
of foreign fighters, to have continued concerns about 
impediments to the country becoming a functioning democracy. So 
that gives opportunity for all of its citizens. So I would say 
there is a lot at stake here and it's important for us in the 
United States to pay attention.
    Ambassador Moore, I would like to go back to the earlier 
reference to the Mothers of Srebrenica because they have also 
been in our office. And as you know, the mandate of the 
International Tribunal on War Crimes in the former Yugoslavia 
is to expire next year. Can you talk about whether you think 
that it should be renewed, what the chances of that are, and 
what the prospect of continuing to go forward with the 
prosecutions are? You mentioned it a little bit.
    Can I then also ask you or others on the panel to talk 
about what's being done to counter violent extremism, the 
efforts to recruit foreign fighters that are going on in the 
country?
    Amb. Moore. Senator Shaheen, thank you very much for that.
    Yes, certainly in regards to all the members of the 
Commission from the Mothers of Srebrenica, I was so pleased 
that Munira and other mothers we were able to cosponsor this 
event just a couple of weeks ago. They were very keen to see 
justice done, and we want to see justice done as well.
    There is a huge backlog of cases. These crimes occurred 
more than 20 years ago, and yet in so many instances, the vast 
majority, nobody has been brought to justice. The prosecutors 
and judges need to do their job. They need to do a better job. 
And we are trying to help them do that by monitoring the 
process of conducting these trials. We are supporting the 
mothers and other institutions in trying to get as much 
attention to these issues as possible.
    You mentioned ICTY, the International Criminal Tribunal for 
the former Yugoslavia. It is wrapping up by the end of next 
year. I think that's a good, illustrative example. Everyone 
reacted in various ways to the conviction of Karadzic, the 
acquittal of Seselj. In both cases the chief prosecutor, Serge 
Brammertz, with whom we work very closely, is appealing those 
judgments, seeking a longer sentence in the Karadzic case and 
of course seeking a conviction in the Seselj case. No one was 
universally satisfied by those verdicts. ``It wasn't enough or 
it was too much,'' et cetera.
    The same problem does exist in Bosnia and Herzegovina. I 
think it's unfair to have some people on the local level there 
look at everything through a political compass. It's not true 
that each conviction and each acquittal has political overtones 
or antecedents, but each and every case is seen in that 
political context. We want to make sure that it's a question of 
seeing justice and not politics. We want to make sure that the 
prosecutors present strong cases against all of the potential 
defendants with all of the evidence that's before them.
    In terms of the major cases that ICTY is dealing with, they 
have those two appeals to deal with. They also have the Mladic 
case. It's been their intention and they've taken these steps 
to forward other cases involving war crimes and genocide in 
Bosnia and Herzegovina to the courts in Bosnia. That process is 
still underway. Again, the work needs to be improved, and we're 
trying to help that done in the name of all of the victims and 
in the name of bringing justice.
    Mr. Wicker. Let me ask you this: Do you think there is, 
among a majority of leaders in the rank-and-file Bosnians, a 
desire to end the corruption and to devise a better, more 
inclusive, pluralistic government without all of these hyphens, 
and yet they just can't seem to bring themselves to a place 
where this gets critical mass?
    What I'm asking is if there is something to be said for 
inviting all the parties back to Dayton, or to a Dayton or to a 
Geneva or someplace and see if everyone could agree to hold 
hands and have a do-over and get this right this time? We know 
that 20 years ago we never dreamed that the structure we 
imposed would still be there in 2016. So would anyone like to--
Dr. Perry, you're about to jump at that. Yes. [Laughter.]
    Dr. Perry. Yes. No, I think that while fundamental 
constitutional reform and structural reform is needed, a Dayton 
II would be the wrong way to do it because the leading 
political parties don't have a vision and don't have a desire 
for a joint life in which you've got civic parties in a 
pluralistic community. And there's really no interest in 
pressing forward with these reforms. There's a lot of----
    Mr. Wicker. Among the public?
    Dr. Perry. I'm saying among the political parties.
    Mr. Wicker. No, but what about among the public?
    Dr. Perry. I think there's more of a sense that this is 
unsustainable among the public, but the people really just 
don't know what to do. We saw in 2013 and then 2014 a number of 
civic protests that started to come out, very often related to 
issues related to corruption and ineffective governance, but 
they fizzled out for a number of reasons that have been 
analyzed and studied. Really, there was no political option to 
which they could hitch their wagon, so to speak.
    And so dealing with the political elites on any of these 
unresolved issues at a Dayton II would, in my view, be almost 
worse than what we've got now because it would probably end up 
creating a complete partition by creating a Croat entity, a 
Serb entity, and a Muslim or Bosniak entity, because that's the 
writing we see on the wall today. And we're seeing a lot of 
steps happening under the guise of federalism to create more 
ethno-territorial borders within the country so everyone has 
their own fiefdom, and this is completely----
    Mr. Wicker. And actually they've got quite a bit of company 
around in Europe, don't they?
    Dr. Perry. They do, and this is what's quite troubling 
again. There are many very functional federal states, but 
they're looking for ethnic federalism where you're only 
representing the people who are from your ethnic/religious 
group and no one else. And this will do nothing to make a 
cleaner, more effective, more accountable democracy.
    And I was glad you used the word ``pluralism'' earlier 
because, unfortunately, we're seeing less and less pluralism as 
things move forward because there's almost an end-run end game 
now as political parties and politicians and some of the elites 
who have gained a lot of money and influence over the past two 
decades are seeking to consolidate everything they can before 
the party ends.
    Mr. Wicker. But, gentlemen, we're taking steps backwards. 
Everyone agrees. Is there any big idea to break the logjam in 
this little country and make it work? [Pause.] Thank you. 
[Laughter.]
    Amb. Moore. No. Again, all politics is local. There are 
local successes. If we can bring more attention to them, maybe 
we can inspire, maybe we can in some cases shame people to act 
differently, but there is no single fix.
    And Dayton II--I have to agree, Dayton II is not an option. 
The circumstances that forced an end to the war after three-
and-a-half years of terrible crimes are just not there, not in 
the region and not elsewhere in the world. The mechanisms 
exist. If they choose to agree, they choose to amend their 
constitution, they have the ability to do that. The 
international community doesn't.
    Mr. Wicker. So there's not a desire to move to something 
different----
    Amb. Moore. No.
    Mr. Wicker. ----just the inability to get there.
    Folks, thank you very much. Does anyone else have anything 
to add for the good of the order? Final comments, Mr. Melia.
    Mr. Melia. One last comment to take this back to where we 
started about corruption. I think in various ways everybody has 
said that it is this overlarge, interlocking governmental 
structure that has the public sector at every level so 
overlarge. That is a driver of corruption. There's just too 
much, too many public officials handling the people's money.
    Mr. Wicker. And I think Freedom House recognized that in a 
recent report.
    Mr. Melia. So this is a driver of corruption and I think we 
need to understand that this constitutional structure is one of 
the contributors to this problem, among other problems.
    Mr. Wicker. Final comment, Dr. Perry.
    Dr. Perry. Sure.
    Again, I think that we really need to try to speak directly 
to the 99 percent of citizens in the country rather than only 
going through the filter of the political parties and trying to 
reach out to do some of these things. When you talk to people, 
when you talk to teachers and farmers and small business 
people, and young people who simply want to get on with it, 
they're not talking about the same issues that we hear the 
political parties talking about.
    They're not concerned about which census forms to count or 
not count so you can have more or less Muslims or Catholics in 
a given piece of territory. They want something normal. It's 
just that there are no tools right now to try to easily vote 
people out of office or in office, or to try to get prosecutors 
to start cases to prosecute and hopefully incarcerate people.
    Mr. Wicker. Term limits maybe.
    Dr. Perry. Some people would like that, I bet, in many 
countries, I suspect. And I think that we need to work with the 
public in this way to create more of a grassroots sense of 
reform and possibility supported by a top-down set of 
conditionality and pressure related to the EU and other drivers 
to try to squeeze the middle that has simply been completely 
unresponsive to the needs and desires of the vast majority of 
citizens.
    Mr. Wicker. Final comments from Ambassador Moore and Mr. 
Blagovcanin. Ambassador Moore.
    Amb. Moore. Well, we're there, of course, to make sure 
that, like other participating states in OSCE, Bosnia and 
Herzegovina fulfills its OSCE commitments. And one of the ways 
they can do that and fight this effort against corruption is by 
pursuing the path to integration. They have declared their 
interest in joining NATO. They're on the path towards the EU.
    It's a long and slow path, but they need to make some very 
specific reforms on that path. That should help in some areas, 
but there are still concrete things that we can do, especially 
by shining a light on the positive examples that do exist 
there. And when you come there again and you see that, I hope 
you will agree.
    Mr. Wicker. Surely the EU is not going to admit a 
government that's structured like it is.
    Amb. Moore. I am unaware of any pre-decision by the EU in 
terms of exactly what the structure should be. There's a long 
list of requirements that they need to fill, the thousands of 
pages of the acquis communautaire, the different chapters that 
have to be reviewed. They will need to implement all kinds of 
laws, not just introduce those laws, when it comes to public 
financing, when it comes to political parties and their 
activities, when it comes to how the judiciary works. It's not 
a perfect fix, but there's work that they'll have to do.
    Mr. Wicker. But as you say, they also have to decide they 
actually are, in fact, a country.
    Amb. Moore. The sense of nationhood in Bosnia and 
Herzegovina we haven't touched on, but of course it's a very--
--
    Mr. Wicker. We touched on it briefly.
    Amb. Moore. Yes.
    Mr. Wicker. And, Mr. Blagovcanin, you have the last word of 
this hearing.
    Mr. Blagovcanin. Very briefly, starting point for 
consideration of all future reforms should be that political 
elites in a country do not have any interest to reform 
anything. That's the best system in the world for them. They 
are accountable to no one. They control everything. They 
control public finance, public companies, lives of the people. 
So it's about articulating the people's deep mistrust in the 
system, how to ensure that citizens can influence what's going 
on in the country. Thank you very much.
    Mr. Wicker. Thank you very much.
    Let me speak on behalf of the entire panel here. We are 
absolutely thrilled at the turnout today, the interest 
expressed by the attendance of rank-and-file individuals from 
whatever organizations or backgrounds. And we are grateful to 
the panel for their expertise and testimony. Thank you all. And 
this hearing is closed.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]

                          A P P E N D I C E S

=======================================================================


                          Prepared Statements

                              ----------                              


Prepared Statement of Hon. Roger F. Wicker, Co-Chairman, Commission on 
                   Security and Cooperation in Europe

    The United States, as you all know, cares deeply about the 
sovereignty, stability, recovery, and future prosperity of Bosnia and 
Herzegovina. Since my first visit to Bosnia and Herzegovina in 1995, 
the country has made tremendous progress. However, more needs to be 
done by the international community and Bosnian leaders to sustain this 
progress.
    Here in Congress, my colleague Senator Jeanne Shaheen and I are 
among those working to nurture private sector entrepreneurship in 
Bosnia and Herzegovina. On the 20th anniversary of the Dayton Accords, 
we introduced the ``Bosnia and Herzegovina-American Enterprise Fund 
Act'' to grow small- to medium-size businesses throughout the country.
    In Bosnia and Herzegovina, however, corruption is a widespread 
occurrence. News reports have highlighted scandals involving senior 
politicians. There has been concern about where outside assistance to 
communities who experienced flooding in 2014 really went. Transparency 
International has ranked Bosnia behind all other countries in the 
region except Kosovo and Albania in its corruption perceptions index.
    Demonstrative steps need to be taken by the state-level, entity-
level and local governments to improve transparency and the rule of 
law. Left unchecked, corruption will hinder Bosnia and Herzegovina's 
integration into Europe and NATO. Twenty years after Dayton, the 
conflict is no longer an excuse for corruption amongst the bureaucrats 
and politicians who are stifling the prosperity of future generations. 
With youth unemployment at 60%, young people leave the country if they 
get a chance. Bosnia and Herzegovina is losing its future.
    I have raised my concerns with State Department and believe these 
concerns are shared. The United States should continue to support 
prosecutors and judges who focus on high-profile corruption and 
economic crime cases. The United States should also continue its 
support for investigative journalism and non-governmental organizations 
advocating reform.
    If we support Bosnia and Herzegovina, we cannot gloss over the 
country's deficiencies. The people of Bosnia have already suffered 
through so much. We need to support them and their aspirations for 
themselves and their children. We need to insist that their political 
leaders are responsive to the needs of the people they represent and 
accountable for their own actions. With this, opportunity and progress 
will follow.

 Prepared Statement of Hon. Christopher H. Smith, Chairman, Commission 
                 on Security and Cooperation in Europe

    Today's hearing focuses on a country of traditional concern to the 
Helsinki Commission--Bosnia and Herzegovina--but also on a concern that 
pervades the Western Balkans and many other states of the OSCE--
corruption.
    Twenty years ago, Bosnia was in the first and most difficult phases 
of its recovery and reconciliation following the brutal conflict that 
began in 1992 and ended in 1995 with outside intervention under U.S. 
leadership culminating in the Dayton Peace Accords. The country was 
devastated, and its people traumatized by conflict marked by the ethnic 
cleansing of villages, the shelling of cities and numerous other 
crimes, including the genocide at Srebrenica.
    Today, many of the physical scars of that period are gone, but the 
country still struggles under a complicated political framework 
reflecting the war-ending compromises adopted at Dayton. Beyond the 
well-known ethnic divisions, Bosnia's progress in the past decade has 
been stymied by official corruption to the detriment of its citizens' 
quality of life and the prospects for the country's integration into 
Europe. While corruption is, indeed, not unique to Bosnia, perhaps it 
is worse there than elsewhere in part because of the lack of post-
Dayton reforms. Rather than fix what's wrong with the country, which 
could threaten those currently holding political power, officials at 
all levels simply focus on helping themselves to the privileges and 
opportunities that come with that power.
    People who have been through so much already deserve something 
better than this.
    This hearing will examine the current situation regarding 
corruption and its causes in Bosnia and Herzegovina, and look at 
efforts by the United States and the international community, along 
with civil society, to combat it.
    As they proceed, I hope our distinguished and expert witnesses 
could address two issues that may be related to corruption and are of 
particular concern to me.
    First, several weeks ago I met with Munira Subasic from the 
Association of ``Mothers' Action of the Srebrenica and Zepa Enclaves.'' 
Munira had herself lost over 20 members of her family at Srebrenica in 
July 1995. Her frustration today regards the seeming impunity of 
hundreds of people--an estimated 850--implicated in violations of 
international humanitarian law during the war, who had their cases 
transferred from the international tribunal to the Bosnian courts. To 
this day, these cases have not been processed, which is an outrage.
    I would like to know to what extent corruption in law enforcement 
and the judicial system protects possible war criminals from facing 
justice. I also would like to hear whether these same people implicated 
in horrible crimes during the war might today be part of the corruption 
problem. I assume that someone willing to engage in ethnic cleansing 
would not hesitate from also taking a bribe, or committing fraud.
    Second, trafficking in persons remains an ongoing problem across 
the globe, including the Balkans and Bosnia and Herzegovina. In the 
immediate post-war period, the heavy international presence in Bosnia 
generated a tremendous, unforgivable but, unfortunately, largely 
unpunished demand for trafficked women as part of the sex trade, and 
the suppliers were as blatant as they were aggressive in their criminal 
enterprise. Measures were eventually taken in response, and Bosnia's 
record improved markedly until recent years when the trend has been 
generally downward.
    Trafficking is a crime that takes organization, but it can be most 
successful in countries vulnerable to corruption. I would therefore 
like to know the extent to which our witnesses feel Bosnia's record in 
regard to trafficking in persons is linked to its record in regard to 
corruption.
    With this introductory comments and concerns, I would now like to 
turn to the Commission's Co-Chairman, Senator Roger Wicker of 
Mississippi, who has been vocal in regard to the need for Bosnia to 
address corruption issues and will chair the remainder of this hearing.

Prepared Statement of Benjamin L. Cardin, Ranking Member, Commission on 
                   Security and Cooperation in Europe

    The Helsinki Commission, which celebrates its 40th anniversary next 
week, has a long history of support for Bosnia and Herzegovina--before, 
during and after the 1992-1995 conflict there--which continues to this 
day.
    Much of my contribution to this effort has focused on the need to 
provide justice for war crimes, crimes against humanity and genocide. 
In that regard, the sentencing earlier this year of Radovan Karadzic by 
the International Criminal Tribunal brought particular satisfaction to 
those of us who pressed for years to have him apprehended and 
transferred to The Hague.
    Unfortunately for far too many people in Bosnia and Herzegovina, 
any satisfaction they may feel is overshadowed by frustration over the 
situation in their country today, and the struggle simply to make ends 
meet. The collective privileges of the major ethnic groups take 
priority over the individual human rights of those belonging to those 
groups, let alone those who do not.
    Inside what Freedom House has called these ``ethnic fiefdoms,'' we 
see patronage and corruption that benefits and protects the political 
elite. We do not see transparency. We do not see accountability. As a 
result, we do not see much progress in Bosnia today. We have tried 
repeatedly--during hearings, or during congressional visits to Sarajevo 
like the one I led in 2009--to encourage reform. It is frustrating to 
see how little has been accomplished given what we know is the 
country's potential.
    We rightly criticize Bosnia's political leadership for this 
situation. However, the international community--mostly the European 
Union but also the United States--has a large role to play in Bosnia 
and, as a result, some responsibility for encouraging their behavior. 
In particular, there has been an emphasis in our policies and 
assistance on maintaining existing stability at the expense of 
promoting positive change. Intransigence is accommodated, while 
conditions--such as resolving the Sejdic-Finci ruling to give Roma, 
Jews and others equal access to public office--are cast to the side. We 
helped create government institutions but negotiate with party bosses 
and often ignore civil society initiatives. We have encouraged 
constitutional and other types of reform but have focused too much on 
getting quick, incremental results when the people deserve something 
more.
    While corruption is a profound problem throughout the Western 
Balkans, this situation exacerbates it, and I hope this hearing and 
other efforts will encourage the international community to take a 
tougher line in combatting corruption.
    Within the OSCE, I have been active over the years in encouraging 
multilateral efforts to combat corruption, such as removing immunity 
from corrupt parliamentarians. I also welcomed the adoption in 2012 of 
the Dublin Declaration on Strengthening Good Governance, giving renewed 
emphasis to work in this area. One recent suggestion made in the spirit 
of this Declaration has been to follow the Financial Action Task Force 
recommendations for reviewing the financial activities of ``politically 
exposed persons.'' Public figures never like to have their financial 
activities scrutinized, but the public interest in thwarting abuses 
such as money laundering, bribery and fraud is clear. It will build 
trust within Bosnia and between Bosnia and its trading partners.
    Finally I want to also mention that much of my current work 
regarding the OSCE has been focused on countering various forms of 
intolerance in our societies. We know that, throughout Europe, enforced 
segregation of communities, discrimination based on creed or color and 
a more general denial of opportunities for advancement, puts democracy 
at risk, and provides fertile ground for violent extremism, including 
that which can lead to terrorism. Some of these conditions exist to 
varying degrees in Bosnia and Herzegovina, a country made more 
vulnerable by its sense of victimization in the 1990s. The corruption 
that exists could encourage their development and make it more 
difficult to thwart terrorist or other violent threats. I hope our 
witnesses can address this issue in their remarks.

 Prepared Statement of Ambassador Jonathan M. Moore, Head of the OSCE 
                   Mission to Bosnia and Herzegovina

    I am deeply grateful to Helsinki Commission Co-Chairs Smith and 
Wicker and Commission members and staff for the opportunity to address 
key topics of relevance to Bosnia and Herzegovina and the wider 
community of OSCE participating States. I would like to especially 
thank the Commission's Policy Advisor Bob Hand, who stands as a shining 
example of expertise and commitment due to his abiding interest and 
decades of engagement in the Balkans. On behalf of my distinguished 
team, I would like to express our appreciation for your attention and 
support.
    Bosnia and Herzegovina faces many challenges. The OSCE Mission to 
Bosnia and Herzegovina, with an extensive network of 10 offices 
throughout the country and 320 dedicated professional staff, works 
every day with people in local communities as well as the most senior 
political leaders--and everywhere in between--to help keep the peace, 
protect fundamental rights, ensure the rule of law, and build 
prosperity.
    The framework for OSCE activities is grounded in the Dayton Peace 
Accords, negotiated at Wright-Patterson Air Force Base in November 1995 
and signed in Paris, France one month later. ``Dayton'' is far from 
perfect, but it succeeded where other efforts failed. The peace accords 
and the constitution enshrined in them--which can only be changed 
through democratic means--continue to serve as a key foundation for 
Bosnia and Herzegovina and its citizens. Dayton brought OSCE to Bosnia 
and Herzegovina, giving us a special role in conducting and observing 
the elections. The role of the OSCE Mission has evolved: the Central 
Election Commission took on the responsibility of running elections in 
2002. While taking on other tasks with the goal of helping the country 
achieve its OSCE commitments and integration aspirations, our Mission 
has maintained an diverse and active field presence and is engaged in a 
variety of fields, seeking and keeping very close ties with 
institutions, organizations, and individuals at all levels of society.
    The Mission's work encompasses OSCE's three dimensions--politico-
military, economic and environmental, and the human dimension--with the 
assistance and guidance of the Chairman-in-Office, the Secretariat, and 
other institutions, including the Parliamentary Assembly and this 
Commission. Our international partners include the Office of the High 
Representative, the United Nations, the European Union, the 
International Criminal Tribunal for the Former Yugoslavia, the Council 
of Europe, and bilateral embassies. The Mission's role in Bosnia and 
Herzegovina is expertly facilitated by strong media and policy planning 
teams, who advance and promote our extensive programmatic work in the 
areas of education, human rights, security cooperation, democratic 
governance, and the rule of law.
    Given the special opportunity to address to Commission today, while 
I will speak with particular focus on the main topic of corruption, I 
would also like to raise education, where our Mission has the lead role 
for the international community; the rule of law, where we have a 
comprehensive role in monitoring the work of the courts and 
prosecutors; and combating violent extremism, where the Mission has 
achieved some concrete successes, particularly at the local level.
Education
    Education has been identified by many as one of the country's 
highest priorities. The children of Bosnia and Herzegovina will only 
prosper if they have quality education: they need the skills, 
knowledge, and judgment to succeed in a modern and increasingly diverse 
world. Quality education requires well-trained teachers, professional 
administrators, effective curricula, up-to-date materials, safe 
conditions, and an inclusive environment. The protection of various 
distinctions, including languages of instruction, is an accepted 
international principle, one sought by most parents in Bosnia and 
Herzegovina.
    At the same time, segregated education is an obstacle that must be 
removed. In many schools, children of different ethnicities have no 
opportunities to interact with each other. That interaction is a vital 
element of the learning process. In the aftermath of the war, it is a 
reality that for many people in Bosnia and Herzegovina their identities 
are defined by their language and religion: denying that fact is not a 
path to a solution, and those rights must be respected. Administrative 
unification of schools--such as in Zepce, a community where we have 
very close cooperation--has been proven to be a positive step. By 
bringing children together, they gain insight into how to be better 
citizens of BiH and the world. In addition, by saving money wasted on 
duplicative staff and programs, more resources are available to repair 
school buildings and purchase the equipment and technology needed to 
provide quality education.
    The OSCE Mission to BiH works with schools, parents, teachers, 
administrators, and political leaders to advance these goals. The fact 
that numerous jurisdictions have distinct and separate responsibilities 
for education makes work in this sector difficult; there is no single 
authority. It must also be said that in some communities the problems 
seem all but impossible to solve. Nevertheless, there are others where 
we have found and encouraged examples of success; where diversity, 
tolerance, respect, and vision have led to improved social and 
educational conditions. Religious communities have also played a very 
positive part in these efforts.
    We are proud to have engaged the most senior political leaders in 
joint events and statements to define the importance of the issue: at 
the same time, the best proof of success is seen in visits to those 
schools--even in the smallest communities--where children are getting 
the instruction their parents want, and where unnecessary and 
artificial barriers between ethnic and religious groups are fading 
away.
Rule of Law
    Victims and witnesses are critically important for the successful 
processing of war crimes. The OSCE Mission to BiH is playing an 
established role in this field, with a team of legal experts that focus 
on the processing of war crimes cases. In that work, we have the full 
support of the country's High Judicial and Prosecutorial Council, close 
collaboration with ICTY, and comprehensive relations with judges and 
prosecutors at all levels. This effort, supplemented by important 
funding from the European Union, helps bring war criminals to justice 
so many years after the end of the war.
    While our international partners are essential, it is a source of 
pride for the Mission to have the endorsement of victims' families for 
what we are doing in this area. Just a few days ago, our Mission 
supported an international conference hosted by the Mothers of the 
Srebrenica and Zepa Enclaves and the Association of Victims and 
Witnesses of Genocide.
    Our relationships with judges and prosecutors and our proven 
professional capacities equip us for engagement in other areas as well. 
We are the only international actor assisting judges and prosecutors in 
processing hate crimes. Separately, we are a partner in efforts to 
combat trafficking in persons, and are preparing a rule book for the 
processing of trafficking cases.
Combating Violent Extremism
    The problem of Foreign Terrorist Fighters (FTF) attracts much of 
the international community's attention. Reliable estimates of the 
numbers of FTF in Syria and Iraq vary: Minister of Security Mektic has 
stated that there are approximately 130 citizens of Bosnia and 
Herzegovina currently in Syria and Iraq, while 43 citizens have been 
killed in the conflict and around 50 have returned. However, far higher 
numbers have travelled from other OSCE participating States, and the 
impact of violent extremism within Bosnia and Herzegovina is a deeper 
concern.
    At home, Bosnia and Herzegovina has seen four terrorist attacks 
over the past six years, resulting in the deaths of two soldiers, two 
policemen, and the wounding of a third policeman in the October 2011 
attack on the U.S. Embassy. The country's authorities are working to do 
what they can, but Bosnia and Herzegovina is vulnerable. Given the deep 
scars left by the war, terrorist attacks could greatly damage the 
stability of the country if they lead to acts of revenge and a growing 
cycle of conflict.
    Combating violent extremism requires extensive coordination as well 
as the collecting of key data. The OSCE Mission to Bosnia and 
Herzegovina, given its mandate and capacities, is not in a position to 
gather or analyze sensitive information. However, we are taking 
advantage of our grass roots-level involvement throughout the country 
to make a difference: as in other areas, we see clear evidence of the 
essential role played by local communities. Having helped establish a 
series of 19 Coalitions against Hate across Bosnia and Herzegovina, we 
found in them natural allies to build tolerance and combat violent 
extremism. These are locally-constituted groups of individuals and NGOs 
dedicated to working with each other as neighbors to emphasize positive 
and common rights and build broader respect and understanding 
throughout their communities. After the April 2015 terrorist attack in 
Zvornik, the local coalition there played a central role together with 
the mayor and the Islamic community in calling for calm and tolerance 
and opposing acts of revenge.
    Building on a project funded by the U.S. Government, we have now 
integrated the fight against violent extremism as a permanent element 
of our security cooperation effort, one joined by colleagues from all 
policy and programmatic areas.
Corruption
    As the Helsinki Commission has noted, corruption presents a 
comprehensive challenge to Bosnia and Herzegovina, where it can be 
found in numerous forms and at different levels. It threatens the 
functionality of public and private-sector institutions, wastes public 
resources, deters foreign investment, and damages citizens' trust in 
government and the political system. Despite Bosnia and Herzegovina's 
political figures and agencies increasingly voicing their concerns over 
the perennial dangers presented by corruption, there has been limited 
activity or political will to combat the issue directly. There are some 
innovative and important efforts underway to prosecute cases of 
corruption and to provide greater transparency, and we are using our 
voice and our resources to support them. In Sarajevo Canton, the 
government has set a high standard by revealing the salaries of many 
public officials, and the cantonal prosecutor is making headway on a 
comprehensive case of corruption where the management of a public 
enterprise blocked foreign investment. However, there are not enough 
examples of that, and clearly existing laws and institutions are not 
enough: more work must be done.
    The OSCE Mission to BiH has considerable potential added value for 
work in this sector, including: our expertise in rule of law and 
judicial affairs, as noted above; our heightened visibility and 
political leverage; our close support for governments at multiple 
levels; our regular engagement with various public sector institutions; 
our expertise with gender issues; and our extensive field office 
network and consequent local knowledge and working relationships. As in 
other areas, this last point is particularly relevant to our strengths 
in complementing the work done by others in the international 
community.
    Our Mission has met with numerous stakeholders, all of which 
responded positively to the prospect of greater Mission involvement in 
anti-corruption work, especially at the local level and in the area of 
trial monitoring. We have heard from various partners and potential 
donors that significant extra-budgetary funding might be available for 
anti-corruption projects initiated or run by the Mission. In addition 
to emphasizing the need for anti-corruption work with our existing 
partners such as educators, the media, local and higher-level 
representative bodies, and security institutions, there are two 
particular areas where we are well placed to do more:

1) Corruption case monitoring: Despite the high number of allegations 
and investigations concerning corruption in BiH, there are relatively 
few indictments and still fewer convictions. A low prosecution rate in 
suspected corruption cases undermines public faith in state agencies, 
as officials widely believed to be guilty of corrupt practices are seen 
to act with impunity. We are prepared to use our existing expertise and 
practices in trial monitoring to develop a framework for expanding and 
more comprehensively following and scrutinizing the prosecutorial 
processes and capacities of BiH authorities. A potential U.S. 
Government-funded project ($500,000) includes a needs assessment for 
capacity-building activities based on trial monitoring findings which 
will be a crucial first step.

2) Good economic governance and transparency/anti-corruption ``Beacon 
Scheme'': As noted above, most international partners are focusing 
anti-corruption activities at the entity and state levels, but the 
Mission has a unique capacity for more localized engagement. The Beacon 
Scheme in Bosnia and Herzegovina was launched in August 2005 by the 
OSCE and the Council of Europe as a means to identify, recognize, and 
promote innovation and excellence at the municipal level of government. 
Based on the UK Beacon Scheme, each year a number of themes are 
selected, and municipalities are invited to provide evidence of how 
they have achieved excellence in these areas. Successful municipalities 
receive a small grant to enable them to share their best practices with 
other municipalities, thereby improving the overall standard of local 
governance in Bosnia and Herzegovina. It is a proven methodology that 
encourages best practices and positive re-enforcement between 
municipalities. Existing templates and established practices mean that 
the Scheme could be rapidly implemented. Moreover, it demonstrates 
positive action to the public at the local level, where citizens most 
frequently interact with state authorities. Municipal and city 
authorities could be encouraged to innovate and adopt new practices for 
improving (financial) transparency and/or tackling corruption at the 
local level and promoting a positive business environment. Taking 
advantage of our field office network, the Mission could also utilize 
our Governance and Press and Public Information teams to further 
replicate and publicize best practices countrywide. These activities 
could go hand in hand with other possible initiatives in the area of 
good governance, e.g. reducing barriers to local economic development, 
increasing accountability mechanisms and promoting concepts and 
standards of good governance at the local level.
Conclusion
    Thank you again for the important opportunity to discuss these 
issues. I can tell you that from my many contacts with the people of 
Bosnia and Herzegovina that they want better lives for themselves and 
their children. They are tired of rhetoric and platitudes: they want 
results. Your attention and support will help us to continue to achieve 
positive results. Please take the opportunity to visit us so we can 
show you what we are doing and introduce you to the people whose 
success is our goal. I look forward to your questions, and to hearing 
the views of my fellow panelists.

Prepared Statement of Thomas O. Melia, Assistant Administrator, Bureau 
    for Europe and Eurasia, United States Agency for International 
                              Development

    Thank you, Mr. Chairman, Mr. Co-Chairman, and members of the 
Commission, for the opportunity to testify today on corruption in 
Bosnia and Herzegovina (BiH), and on the efforts of the United States 
Agency for International Development (USAID) to address this challenge. 
I would like to begin by describing the consequences of corruption, and 
then placing corruption in Bosnia in a broader regional context. 
Finally I will describe how USAID is working to help BiH, its citizens, 
government and NGOs, to fight corruption and to mitigate its harmful 
impact 
on society.
    It is fitting that the Commission for Security and Cooperation in 
Europe is addressing this topic, because corruption is an issue of 
national and regional security. As Secretary of State Kerry said in his 
remarks at the recent global summit on corruption in London, ``criminal 
activity literally is a destroyer of nation states.'' Corruption poses 
a direct security threat to states by enabling the smuggling of arms, 
persons, and drugs.
    Furthermore, corruption is a significant obstacle to development, 
the focus of my Agency. USAID's mission is to partner to end extreme 
poverty and promote resilient, democratic societies while advancing our 
prosperity and security. But corruption leads to a weakening of 
democratic institutions, economic decay by discouraging investment, 
increased inequality, and deprives states of the resources they need to 
advance their own development.
    In the Europe and Eurasia region, states weakened by corruption are 
more susceptible to malign pressure and manipulation from the Russian 
Federation and other countries, as any semblance of a rules-based order 
often seems to take a back seat to power, influence, and greed 
including oligarchs, whose geopolitical goals do not respect 
international commitments to transparency, rule of law, and fair play. 
Finally, endemic corruption threatens states by depriving them of the 
most important resource of any democratic government--the trust and 
confidence of its citizens. Where public trust is absent, there can be 
little expectation of the cooperation of citizens with government to 
build resilient democracies, let alone do what is needed to counter 
emerging threats like violent extremism.
    For these reasons the Administration sees addressing the problem of 
corruption, and the need for open, effective, representative governance 
as a significant priority. U.S. foreign assistance plays an important 
role in formulating country-specific anti-corruption strategies, and 
USAID democracy, rule of law, and governance programming is in the 
forefront in many of these efforts. In the transitioning countries of 
Europe and Eurasia, USAID cannot succeed in our mission as an agency if 
corruption is permitted to go unchecked and unpunished. Understanding 
that, the Agency works with governments, civil society, independent 
media, political actors, and citizens to build the capacity to limit 
the likelihood of corruption, and to uncover, investigate and punish 
corruption when it occurs.
    To understand the problem of corruption in BiH, it must be seen in 
its regional context. It is a sad fact that corruption is a major 
problem throughout the Balkan region, and BiH is no exception. 
According to the most recent Transparency International Perceptions of 
Corruption Index (2015), BiH had a score of 38 (on a 100 point scale, 
with lower scores indicating higher perception of corruption), placing 
it 76th out of 168 countries surveyed, behind all of its Balkan 
neighbors except Albania (88th) and Kosovo (103rd). More troubling, 
perhaps, is that according to this index BiH is losing ground in its 
fight against corruption, with its score falling one point in the past 
year, and four points from 2012. According to the World Bank's World 
Governance Indicators (2015), control of corruption in BiH has changed 
little, if at all, from its worst days immediately after the conclusion 
of the war. This is consistent with findings from Freedom House's 
``Nations in Transit'' data on anti-corruption measures for BiH, and on 
democratic reforms more broadly, which show that modest gains that were 
made in all measures peaked around 2006 with stagnation or backsliding 
in the years that have followed.
    Finally, USAID's National Survey of Citizens' Perceptions 2015 
reports that over one in five persons surveyed reported paying a bribe 
to a public official, most often to doctors, nurses and police 
officers. Sixty-three per cent of citizens nationwide believe that the 
judiciary is not effective in combating corruption, and 62 per cent 
believe that public officials who violate the law are neither 
identified nor punished.
    All of this indicates that corruption in BiH is bad by Balkan 
standards, and possibly getting worse. When one takes into account 
BiH's multiple levels of government, and the fact that, by some 
estimates, the public sector makes up fifty per cent of BiH's GDP, the 
depth of the problem and its impact on citizens' lives becomes all the 
more clear.
    To combat corruption and limit its impacts on the state and 
society, the United States is supporting both democratic, inclusive 
governance (including by strengthening the justice sectors and civil 
society) and economic growth (including through private sector 
development, fiscal reforms, and reform of the energy sector).
    Growing the size and strength of the private sector in BiH is of 
critical importance both for the prospect of economic development and 
as a concrete means to limit the impact of corruption by limiting the 
influence of public officials in rent-seeking behavior. USAID is 
working to do this in several ways. For example, USAID has new 
Development Credit Authority agreements in place with three commercial 
banks valued at $30 million dollars, as well as three older agreements 
valued at $46 million dollars. To date, loans have been disbursed to 
120 private firms, supporting close to 2,800 private sector jobs and 
generating over 500 new jobs in the private sector.
    In addition, recognizing that governance and economic development 
at the local level are crucial to success, USAID is implementing 
Business Friendly Certification (BFC). By reforming municipalities and 
increasing transparency, BFC will improve the business enabling 
environment, ultimately contributing to additional private sector 
growth.
    USAID is always considering new opportunities as well. This month, 
a team of economic growth experts from USAID is in Bosnia assessing 
what other options may be available to engage to support the country's 
economic growth and prosperity. Several members of this Commission have 
sponsored legislation authorizing an enterprise fund for Bosnia, and 
this team is looking at whether or not this would be the right approach 
to grow the private sector.
    The Agency is also working to make public finance more transparent 
and accountable. With a local partner, Finit Consulting, USAID works to 
eliminate non-
transparent nuisance taxes for businesses, reducing opportunities for 
irregularities and corruption. The project will also improve 
transparency in government finance through the provision of IT 
solutions for budget management and the Treasury by introducing and 
expanding e-services for payment of direct taxes. This support will 
also be used to help entity tax administrations to conduct risk-based 
audits.
    Due to the risk posed by large transactions, the energy sector is 
an area of specific concern in the fight against corruption. Through an 
activity implemented by Advanced Engineering Associates International, 
USAID is working to transpose EU Energy Directive requirements into 
local legislation to govern the operation of the energy sector in BiH. 
Transparency in areas including the permitting of energy infrastructure 
projects will help to limit opportunities for corruption in this 
sector.
    Corruption also occurs when local producers skirt regulatory 
standards (say, with watered-down milk) to keep costs down, putting 
consumers at risk. A USAID project, implemented by Cardno Emerging 
Markets, helps mitigate corruption by supporting agricultural exporters 
to adopt stringent EU regulatory import standards, particularly food 
safety and veterinary and phytosanitary procedures. Recently, this 
program facilitated EU approval for eight dairies to export milk to the 
EU. As more producers meet EU standards there will be less room for 
corrupt practitioners to compete.
    While our economic growth efforts look to limit opportunities for 
corruption, other efforts are building the capacity to help citizens 
and civil society to uncover corruption when it occurs, and helping 
state bodies effectively investigate and punish 
culprits.
    For example, partnering with a local Bosnian organization, the 
Center for Media Development and Analysis, USAID is helping to build a 
coalition of 60 local NGOs to advocate for implementation of anti-
corruption reforms necessary for EU integration. USAID supported civil 
society and legislative stakeholders as they initiated adoption of 
whistleblowers' protections in 2013. Last year, with our assistance, a 
group of local NGOs started an advocacy campaign to increase 
transparency, competitiveness and accountability within the public 
procurement system and align it better with EU standards. This advocacy 
is critical since three quarters of BiH's annual $1.7 billion dollars-
worth of procurements is done non-competitively and hundreds of these 
procurements are awarded to companies owned or co-owned by elected 
officials. A few weeks ago Transparency International, also supported 
by USAID, presented legislative proposals to clarify and de-politicize 
the issue of conflict of interest in BiH. Similar actions are planned 
in the areas of public employment, health and education, which have 
proven to be sectors highly susceptible to corruption. The program also 
promotes civic monitoring, supports the production of independent, 
investigative video documentaries to expose corrupt individuals and 
provide evidence for prosecutions. Finally, as part of this project's 
efforts to raise awareness and understanding of corruption affecting 
citizens, USAID, together with our NGO partners, staged a traveling 
exhibit on the lack of procurement transparency in BiH's public sector, 
featuring a dozen items procured by entity governments at grossly 
inflated prices. The exhibit opened in Sarajevo, and was staged in ten 
major cities. A Facebook post on the exhibit generated more ``likes'' 
than any post in the page's history, and was viewed by over 170,000 
people.
    The justice sector is another critical front in the fight against 
corruption. Partnering with Millennium DPI Partners, USAID helps 
prosecutors, judges, other justice sector officials and institutions be 
more responsive and accountable in the administration of justice, to 
better serve the needs of citizens. This effort, along with other U.S 
government efforts including that of the Department of Justice, 
counters corruption by encouraging more efficient prosecution of cases 
of corruption and organized crime, and by strengthening justice sector 
institutions' ability to uphold public integrity and mechanisms of 
self-accountability. Through this project, USAID has partnered with all 
19 prosecutor's offices to help them to prosecute cases of corruption 
and organized crime more effectively and efficiently by improving the 
performance and authority of prosecutors, recognized as the weakest 
link among officials. USAID is also working with the Department of 
Justice's Office of Overseas Prosecutorial Development, Assistance and 
Training (OPDAT) on advising anti-corruption prosecutors, improving 
police-prosecutor cooperation, and providing case-based mentoring to 
Bosnian counterparts in anti-corruption cases. We are also working, 
through mentoring, training and technical assistance to BiH's High 
Judicial and Prosecutorial Council (HJPC), to institute new management 
systems for appointment of new judges and prosecutors--the most common 
``entry point'' for politics into the work of the justice sector--and 
to conduct performance appraisals, give merit-based promotions and to 
provide incentives and rewards for the successful prosecution of cases.
    Regional collaboration is also key to fighting corruption. USAID is 
working with other countries in the region to ensure that regional best 
practices are shared with Bosnian counterparts. We will also support 
the institution of a new special anti-
corruption unit in the BiH Federal Prosecutor's Office, mandated by a 
2014 anti-
corruption law. USAID is also helping to increase cooperation and 
coordination among hundreds of state, entity, and cantonal law 
enforcement and justice sector institutions to prevent leaks of 
sensitive information that undermine the investigation and successful 
prosecution of corrupt cases. To strengthen disciplinary procedures for 
judges and prosecutors, USAID helps the state-level Office of the 
Disciplinary Counsel to better manage complaint procedures and 
autonomously review the conduct of judges and prosecutors and to 
recommend appropriate sanctions for unethical conduct and corruption of 
judicial officials.
    Finally, since ``justice delayed is justice denied,'' this project 
initiated improvements in the efficiency of enforcement of judicial 
decisions through a data-driven process that has led to 
recommendations, including a Judicial Effectiveness Index to identify 
bottlenecks and inefficiencies, which were embraced by the HJPC.
    While corruption and organized crime often depend on the inability 
of law enforcement actors to track illicit activity across borders, 
journalists are not bound by such limitations. Sunshine, as they say, 
is the best disinfectant. The first step in countering corruption is to 
expose it. Through the Regional Investigative Journalism Network 
(RIJN), journalists receive more intensive training and practical 
experience in producing documented, high-quality investigative 
journalism based on best international standards and practices. The 
program is designed to link these journalists across borders, improve 
their investigative skills through on-the-job training, and use 
innovative digital technologies to collaboratively produce cross-border 
investigative reports. It also works to build citizen demand to reduce 
corruption, fraud, and other criminal activities through increased 
exposure to professionally produced investigative journalism. RIJN has 
proven its ability to serve as a platform for getting results in 
exposing corruption, from its revelation that a prime minister in 
Bosnia and Herzegovina received a free apartment, leading to his 
indictment and eventual resignation, to its current reporting on 
regional corrupt leaders' links to offshore accounts in the Panama 
Papers. RIJN has carefully tracked the impressive dividends from its 
reporting across the region: the recovery of at least $600 million in 
hidden assets by tax authorities; the closure of more than 1,300 
companies; investigations, indictments, and arrests by law of 80 
people--including an ex-president; and the resignation or sacking of 
ten government officials.
    In conclusion, though the threats posed by corruption in BiH--to 
its economy, its public services and to the state itself--are great, 
USAID is working with our partners to limit opportunities for 
corruption, uncover them when they occur, and see that they are 
investigated and punished. We are doing this together with our European 
partners, in some cases leveraging U.S. Government funds with donations 
from allies. USAID is also doing this with other U.S. Government 
agencies, such as the Department of Justice, which is providing expert 
advice and assistance to investigators, prosecutors, and judges in BiH. 
The existence in BiH of the EU reform agenda, the broader EU 
Association process, and initiatives such as the Open Government 
Partnership offer BiH and its partners an opportunity to intensify 
efforts to fight corruption.
    This needs to be an ambitious, substantive, and multifaceted agenda 
for changes in law and in practice--changes that will impact the daily 
lives of Bosnia's citizens. This effort will require significant 
political will from BiH's leaders, NGOs and citizens. Progress will not 
be easy, and constraints related to the structure of the constitutional 
system in Bosnia may limit possibilities for dramatic progress. But 
despite these challenges, our decades-long commitment to peace in BiH 
demands our best effort.
    Thank you for the opportunity to testify. I look forward to your 
questions.

  Prepared Statement of Srdjan Blagovcanin, Chairman of the Board of 
    Directors of Transparency International, Bosnia and Herzegovina

    Thank you very much, Mr. Chairman, Thank you very much for this 
opportunity for me to speak on what I consider a very important topic.
    There are a lot arguments to rightfully claim that corruption is 
the biggest problem today in Bosnia and Herzegovina.
    Direct damage to the country reaches hundreds of millions of 
dollars disappearing from the budget due to corruption in public 
procurement and privatization. Indirect damage, due to a lack of 
investment caused by corruption, is difficult even to estimate.
    The crux of the problem is political corruption, which involves the 
highest political and public officeholders. There are numerous well-
documented corruption cases involving political leaders and top party 
officials.
    Twenty years after the war Bosnia and Herzegovina remains a country 
completely captured by corruption, where it is virtually impossible to 
get any public service without having to resort to corruption. Most 
relevant studies clearly indicate that in recent years Bosnia and 
Herzegovina has not seen any progress in strengthening the rule of law 
and the fight against corruption and, as such, is among the worst-
ranking countries in the region.
    Corrupt political leaders hold sway over key institutions in the 
country. This allows them to use all the economic resources of the 
country in their own private interest.
    How pervasive corruption actually is can be seen on an everyday 
basis. Due to corruption in public procurement, taxpayers' money--that 
is the money of the citizens of BiH--is used to procure goods, services 
and public works at prices that are severalfold greater than their 
actual cost.
    The example of the two recently collapsed banks also reveals the 
ruthless extents of corruption, with total damage exceeding half a 
billion dollars. The two cases involve the highest public 
officeholders, and the indictments against them have not been brought 
yet.
    Political control over the judiciary and law enforcement agencies 
allows corrupt leaders to be protected from prosecution. There are 
almost no cases of corruption that result in judgments of conviction. 
Political corruption is ignored by public prosecutors because of 
political influence.
    The crux of the corruption problem lies in how political parties 
are organised. Devoid of basic intra-party democracy, they operate in a 
mafia-like manner. Their basic principle of operation is based on the 
distribution of the spoils. Their booty are budgetary funds, public 
companies and institutions. Political elites use clientelistic 
appointments as the main method of exercising control over 
institutions. In this way, political leaders create neopatrimonial-
clientelistic networks which they use to run the country.
    The real and almost unlimited power lies in the hands of a few 
ethno-political leaders, while institutions remain devoid of any 
content and are mere shells without any power.
    The political leaders and the ruling political parties are 
therefore not interested in reform and European integration. They have 
learned their lesson from Croatia and Romania, two countries that had 
to tackle political corruption and prosecute their political leaders as 
part of their process of joining the EU. Therefore, the interest of 
political elites in the country is solely and exclusively to maintain 
the status quo. Any progress in reform implementation directly affects 
and limits their unbridled power and exposes them to criminal 
prosecution. Therefore, their strategy is to rhetorically accept 
reforms and advocate for the country's progress towards the EU, while 
in practice they only feign reform.
    Pervasive corruption affects human rights and freedoms. Corrupt 
politicians turn a blind eye and a deaf ear to the criticism coming 
from civil society organizations and the media. Hence, cases of 
repression against the media and civil society remain widespread.
    Corruption within institutions prevents citizens from accessing 
justice. A backlog of over 2 million cases, in a country of 3.5 million 
people, means that the judicial system is completely blocked in 
practice. Adjudication of disputes takes years to complete. Court 
rulings, even those made by the Constitutional Court, are not complied 
with unless they are in the interest of the privileged few.
    The consequences of corruption are felt by citizens on a daily 
basis. Corruption exposes them to additional costs to pay for health, 
education and administrative services. Administrative corruption is 
part of everyday life for citizens.
    Another consequence of corruption is the growing inequality, where 
the privileged few have access to all public resources, while the vast 
majority of citizens are deprived of access to public services.
    Also, corruption undermines economic development of the country, 
trapping the majority of its people in poverty and depriving them of 
employment opportunities. For years Bosnia and Herzegovina has been 
among the worst-faring countries in Southeast Europe when it comes to 
attracting foreign investment.
    The way the market is organized has a pernicious effect on the 
private sector. Privileged access to public tenders and privatization 
processes is reserved for cronies, operating on the principle that 
losses are ``socialized'' while profits are privatized.
    Therefore, I want to reiterate what I said at the beginning of my 
talk. Corruption is the biggest problem in Bosnia and Herzegovina 
today. Without progress in fighting corruption it is not possible to 
make progress in the implementation of any other reform. It is 
impossible to reform the judiciary if it is corrupted. It is impossible 
to reform education if it is corrupted. Or public administration, or 
any other field for that matter.
    How to make a breakthrough?
    As Fukuyama rightly pointed out, all reforms are inherently 
political; \1\ therefore it is about generating political will for 
reforms and not only strengthening capacities of the institutions. 
Leveraging and articulating the public's deep mistrust in the 
government through citizens' active involvement in decision making 
should be prioritized in order to avoid another wave of destructive 
protests like those of 2014. Past experience shows that simply calling 
on leaders to undertake reforms and to take responsibility is 
insufficient. Generating a genuine and articulated ``internal demand'' 
for reforms is key to achieving sustainable progress toward integrating 
the country into the EU.
---------------------------------------------------------------------------
    \1\  Fukuyama (2014).
---------------------------------------------------------------------------
    A viable solution to the problem of political corruption must be 
found at the level of the political system. Which in this case means 
the democratization of the political system and, above all, the key 
actors of the political system, namely political parties. Reforming the 
way political parties operate and introducing intra-party democracy 
would create conditions for dismantling the clientelistic networks run 
by political leaders that have captured the country's institutions.
    Furthermore, it would allow a wider range of people to influence 
the political processes and this would, in turn, lead to better 
articulation of the demand for change and reforms.
    Another important aspect of the reform concerns the strengthening 
and reforming of the judiciary. The judiciary must finally assume 
responsibility for prosecuting corruption. For this to happen, it is 
imperative to ensure that it is independent in its work and free from 
any political interference. To counter political interference, it is 
crucial to ensure transparency in the appointment of judges and 
prosecutors.
    The judiciary has to gain public trust. This implies that the work 
of the judiciary is based on the principles of transparency and 
accountability.
    In any case, Bosnia and Herzegovina still needs strong 
international support in undertaking reform to strengthen the rule of 
law and fight against corruption. This also requires that the current 
EU reform agenda be expanded to include a detailed and specific plan 
for combating corruption and strengthening the rule of law.
    Thank you very much again for the opportunity to serve as a witness 
at this hearing today.

  Prepared Statement of Dr. Valery Perry, Sarajevo-based Independent 
 Researcher and Consultant and Senior Associate at the Democratization 
                             Policy Council

 Introduction
    I would like to thank Representative Smith, Senator Wicker, and the 
Helsinki Commission for organizing this hearing.
     We've heard a number of vivid descriptions of the problem of 
corruption--and the politics of corruption--in Bosnia and Herzegovina 
today.
    The politics of corruption makes meritocracy impossible, weakening 
institutions and promoting brain drain of the country's best and 
brightest.
     The politics of corruption results in a system in which floods can 
devastate one third of the country and no leaders or officials are held 
accountable for their failure to prevent, prepare, or respond to such a 
disaster.
    The politics of corruption weaken the notion of civil society, 
shared purpose and joint vision, instead strengthening informal 
practices, patronage networks and exclusionary practices that are 
particularly damaging to a society barely a generation removed from the 
most violent conflict in Europe since World 
War II.
     No political system anywhere is immune from corruption. Systems, 
structures and incentives either encourage or impede corruption. 
Societies ideally organize themselves in a way that minimizes potential 
for corruption and maximizes the public good. This can be hit or miss; 
no governmental design is ever perfect.
     Bosnia's political economy was shaped by the war and the Dayton 
Peace Agreement that ended it in 1995. Dayton was, and remains, a 
``Made in America'' product. For this reason it is important that we 
are having this discussion today.
What Should Be Done
    The problem of corruption in Bosnia is not a technical problem; it 
is a political problem. In the absence of fixing the core political 
problems that both prevent accountability and allow impunity, all of 
the projects, capacity building, technical support and money in the 
world will not overcome the fundamental weaknesses and democratic 
contradictions at the core of Bosnia's unaccountable political system.
     In fact, after two decades and literally thousands of well-
intended projects, it is time to consider not only the diminishing 
returns of such approaches, but the broader negative impact of such 
efforts actually maintaining the illusion that a system that has failed 
for 20 years can in fact somehow be made to work. Continuing to prop up 
a system proven to be ineffective is akin to hoping that updating the 
software on your 15-year old computer will help its performance. At 
some point you have to recognize that the problem isn't the software, 
but the hardware, and that no patches or workaround will improve its 
performance.
    So what should be done? I will focus on three specific 
recommendations today.
     First, a package of legislative reforms aimed at reducing the 
possibilities for official corruption, abuse of office and collusion 
should be developed and supported. This would include laws related to 
conflict of interest, political party financing, and freedom of 
information, among others. Laws, by-laws and statutes regulating public 
enterprises also need to be urgently overhauled in line with available 
guidelines and good practice. Many existing USAID and other U.S.-funded 
programs--ranging from support for investigative journalism to critical 
justice sector reform--could be better coordinated and recalibrated to 
support a holistic approach.
     There will be political and in turn institutional resistance to 
such reform, and every effort will be made to evade proper 
implementation; we have seen this happen for years. However, there 
would be overwhelming public support. Further, such an initiative would 
be very much in line with the European Union's own Reform Agenda, and 
in fact, the notion that the country's business environment could be 
improved without these reforms reflects a fundamental misunderstanding 
of the political economy in post-Dayton Bosnia.
     Second, the lessons of unsuccessful past privatizations in BiH 
must be studied, learned and applied by domestic and international 
actors alike, to understand both their role in further strengthening an 
oligarchical class of political and party leaders, and to understand 
why part of the country that has privatized most of its public assets 
(the Republika Srpska) has failed to enjoy any broad and durable 
economic or social benefits from these transactions.
     Future privatization should be put on hold until reforms to the 
broader ecosystem have been implemented; otherwise the country risks 
seeing a further enriched and emboldened political elite, accompanied 
by questionable foreign investment in enterprises which is often more 
about real estate and asset stripping than about building a robust 
economy for Bosnia and its people.
    Third, it is critical to understand how the election system in 
Bosnia contributes to the lack of accountability and makes it not only 
possible but natural for politicians to be elected and re-elected 
without delivering anything to their voters other than limited and 
targeted patronage. Much has been written on this topic. Current 
election law reforms under consideration will in fact make it harder 
for new or small parties or independent candidates to participate in 
and influence political life. This will further entrench the dominant 
party machines that have held control for a generation, further eroding 
the checks and balances needed to resist and deter corrupt practices.
     Substantial election reform is needed so citizens know who really 
represents them at every level of governance and can vote them in and 
out of office; so constituent service offices operate in communities 
and serve as a link between representatives and the citizens they 
represent; and to ensure that citizens have the chance to be 
represented in government at every level. Representation should not be 
based on ethno-national affiliation--whether a voter is a Bosniak, 
Croat or Serb, or the consistently marginalized ``Others''--but simply 
whether a voter is a citizen.
     These reforms could effect substantial change, and do not require 
a ``Dayton 2.'' In fact any elite-driven, foreign-sponsored effort to 
engineer reforms would very likely create a system even worse than the 
one we see today. Instead, reforms need to be citizen-focused, 
combining coordinated top-down support and bottom-up pressure to create 
momentum among a population that is ready for such change, but 
uncertain how to disempower the system that has so effectively captured 
the country for so long.
Why Does BiH Matter?
     Bosnia and Herzegovina is a small country of less than 4 million 
people. It is fair to ask why the U.S. should continue to spend time on 
it, considering the many other foreign policy priorities and 
humanitarian crises facing the world today.
    The answer is simple: if the U.S. and its partners cannot support 
the development of a functional and accountable system in Bosnia, how 
can it hope to support positive and peaceful political outcomes in 
other parts of the world?
    If the U.S. and its partners do not learn the lessons of failed 
post-war power-sharing arrangements in Bosnia, there is the potential 
that similar foundational weaknesses will be introduced into other 
peace deals, creating an illusion of peace and stability while 
corruption and spoilers flourish, social discontent is manipulated and 
society becomes entrenched in a state of frozen conflict.
    Finally, the same systemic failures and factors that allow 
corruption and unaccountable governance to thrive in frozen conflicts 
foster civic marginalization, alienation, and in the worst cases enable 
the rise of extremist groups and radicalized individuals seeking extra-
institutional remedies to political and social maladies.
     In closing, corrupt politics and the pain of an economic 
transition which has delivered little benefit to the majority of the 
population in Bosnia have not only reinforced public frustration with 
the post-war situation, but has revealed increasing dissatisfaction 
with the very idea of democracy and competitive markets--promotion of 
which have been core U.S. foreign policy goals for more than two 
decades.
     It is not too late to reverse recent negative trends, though the 
clock is ticking as social divisions have reified and hardened in the 
``divide and rule'' politics of the past generation. More ethnic 
politics and virtual partition will not help. Laws, strategies and 
initiatives that seek to hardwire accountability into the system, 
backed up by meaningful conditionality and enforcement mechanisms, can.
     I'm hopeful that this hearing will put this discussion back into 
the spotlight, and generate momentum for the change that is so 
desperately needed if the promise of Dayton Bosnia is to be fulfilled.
    Thank you.

                        M A T E R I A L    F O R

                          T H E    R E C O R D

=======================================================================

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

June 17, 2016

The Honorable Roger F. Wicker
Co-Chairman
Commission for Security and Cooperation in Europe
Washington, DC

Dear Co-Chairman Wicker,

At the May 25th Commission for Security and Cooperation in Europe 
hearing ``Combatting Corruption in Bosnia and Herzegovina,'' you asked 
that I provide additional details on the successes of the U.S. 
Enterprise Funds in Europe and Eurasia.

Starting in the early 1990s, following a Congressional mandate, the 
U.S. Agency for International Development established ten investment 
funds throughout Central and Eastern Europe and the Former Soviet Union 
with total authorized funding of nearly $1.2 billion, collectively 
known as the Enterprise Funds. These funds were intended to jumpstart 
capitalism and entrepreneurship, as the funds would provide equity 
investments in newly privatized companies or start-up businesses. These 
ownership stakes would enable the fund managers to participate in the 
governance of the enterprises, which provided opportunities to model 
best practices in law-abiding corporate governance, consistent with 
free-market principles. After a period of ten or more years--during 
which time many of these businesses thrived and generated jobs--the 
funds would sell off their ownership stake. In many cases, the funds 
made gains on their investments when they sold these stakes.

Enterprise Funds are an innovative development technique that achieved 
sustainable economic development impact while catalyzing additional 
investment resources. They also generated significant income that 
enabled the U.S. later to endow longer-term Legacy Foundations, which 
continue to pursue the overarching objective of private sector 
development, while also returning substantial sums to the U.S. 
Treasury. The following is a summary of the substantial economic and 
development impacts provided by funds originally endowed by the U.S. 
Congress in Europe and Eurasia:

    <bullet>  Over 300,000 jobs were created or sustained through 
investment and development activities;
    <bullet>  Significant development capital was provided to SMEs and 
entrepreneurs operating in early-stage transition countries where 
private investment capital was limited, which helped create an 
environment where the culture of private enterprise could flourish;
    <bullet>  The Funds and their portfolio companies modeled good 
corporate governance and ethical business practices demonstrating that 
it was possible to operate successfully while paying taxes and not 
paying bribes;
    <bullet>  $9.8 billion of additional capital was raised from co-
investors and the creation of new private sector investment vehicles 
over the life of the Funds;
    <bullet>  To date, the Funds have returned $225.5 million to the 
U.S. Treasury; and
    <bullet>  Remaining proceeds of approximately $1.2 billion have 
funded nine long-term philanthropic ``legacy'' foundations, which 
continue to promote private sector development, and continue to build 
goodwill between the US and their host countries after USAID has exited 
the country.

The Enterprise Funds have demonstrated significant success in achieving 
their original goal of promoting economic growth and private sector 
development in the region. These achievements include a wide range of 
tangible and intangible development accomplishments which are not 
captured by traditional financial indicators such as profit and return 
on investment. Still, the Enterprise Funds managed to overcome the 
challenges of investing in transitioning economies while achieving, 
collectively, positive overall returns on their investments even though 
this outcome was not the primary focus of the initial mandate.

As might be expected, the efficacy of individual Enterprise Funds 
varied by country, based on the economic and political conditions on 
the ground, as well as the overall investment strategy and specific 
investment decisions made by each Fund's Board and management team. The 
countries in which enterprise funds operated benefited significantly 
from an economic development perspective. Some of the notable 
achievements include:

    <bullet>  The Polish-American Enterprise Fund established the 
largest micro-finance institution in Poland, disbursing $183 million 
through 69,275 loans;
    <bullet>  The Romanian-American Enterprise Fund pioneered 
investment banking to support privatization of state owned enterprises, 
including two banks and energy companies, attracting over $200 million 
in FDI;
    <bullet>  The Baltic-American Enterprise Fund developed the 
necessary legal structure to support an annual $100 million consumer 
mortgage industry and the first mortgage backed securities in Eastern 
Europe;
    <bullet>  The Bulgarian-American Enterprise Fund helped develop the 
necessary legal structures for mortgage backed securities and real 
estate investment trusts; and
    <bullet>  The Albanian-American Enterprise Fund established a 
nation-wide bank in Albania, providing Western-style credit cards, 
ATMs, mortgages, commercial banking services, and $50 million in 
syndicated loans for public/private infrastructure projects.

Thank you for your interest in this issue and for the opportunity to 
testify.

Sincerely,

    Thomas O. Melia
    Assistant Administrator
    Bureau for Europe and Eurasia

                                 [all]

This is an official publication of the
Commission on Security and Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
